<html>
<title> - [H.A.S.C. No. 111-137]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2011 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-137]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2011

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

  BUDGET REQUEST FOR THE MILITARY SERVICES' OPERATION AND MAINTENANCE 
                                FUNDING

                               __________

                              HEARING HELD
                             MARCH 16, 2010

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                  U.S. GOVERNMENT PRINTING OFFICE
57-924                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                       SUBCOMMITTEE ON READINESS

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             J. RANDY FORBES, Virginia
SILVESTRE REYES, Texas               ROB BISHOP, Utah
JIM MARSHALL, Georgia                MIKE ROGERS, Alabama
MADELEINE Z. BORDALLO, Guam          TRENT FRANKS, Arizona
HANK JOHNSON, Georgia                BILL SHUSTER, Pennsylvania
CAROL SHEA-PORTER, New Hampshire     K. MICHAEL CONAWAY, Texas
JOE COURTNEY, Connecticut            DOUG LAMBORN, Colorado
DAVID LOEBSACK, Iowa                 ROB WITTMAN, Virginia
GABRIELLE GIFFORDS, Arizona          MARY FALLIN, Oklahoma
GLENN NYE, Virginia                  JOHN C. FLEMING, Louisiana
LARRY KISSELL, North Carolina        FRANK A. LoBIONDO, New Jersey
MARTIN HEINRICH, New Mexico          MICHAEL TURNER, Ohio
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
DAN BOREN, Oklahoma
               Vickie Plunkett, Professional Staff Member
                Lynn Williams, Professional Staff Member
                    Katy Bloomberg, Staff Assistant










                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Tuesday, March 16, 2010, Fiscal Year 2011 National Defense 
  Authorization Act--Budget Request for the Military Services' 
  Operation and Maintenance Funding..............................     1

Appendix:

Tuesday, March 16, 2010..........................................    37
                              ----------                              

                        TUESDAY, MARCH 16, 2010
FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
        THE MILITARY SERVICES' OPERATION AND MAINTENANCE FUNDING
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Ranking 
  Member, Subcommittee on Readiness..............................     3
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Amos, Gen. James F., USMC, Assistant Commandant, U.S. Marine 
  Corps..........................................................     6
Chandler, Gen. Carrol H., USAF, Vice Chief of Staff, U.S. Air 
  Force..........................................................     7
Chiarelli, Gen. Peter W., USA, Vice Chief of Staff, U.S. Army....     3
Greenert, Adm. Jonathan W., USN, Vice Chief of Naval Operations, 
  U.S. Navy......................................................     5

                                APPENDIX

Prepared Statements:

    Amos, Gen. James F...........................................    76
    Chandler, Gen. Carrol H......................................    92
    Chiarelli, Gen. Peter W......................................    47
    Forbes, Hon. J. Randy........................................    46
    Greenert, Adm. Jonathan W....................................    61
    Ortiz, Hon. Solomon P........................................    41

Documents Submitted for the Record:

    Nine slides presented by Mr. Forbes..........................   105

Witness Responses to Questions Asked During the Hearing:

    Mr. Forbes...................................................   117
    Mr. Kissell..................................................   118
    Mr. Ortiz....................................................   117
    Mr. Shuster..................................................   118
    Mr. Taylor...................................................   117

Questions Submitted by Members Post Hearing:

    Mr. Loebsack.................................................   136
    Mr. Ortiz....................................................   121
 
 FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
        THE MILITARY SERVICES' OPERATION AND MAINTENANCE FUNDING

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                           Washington, DC, Tuesday, March 16, 2010.
    The subcommittee met, pursuant to call, at 2:06 p.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
        FROM TEXAS, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Ortiz. The subcommittee will come to order. Today the 
Readiness Subcommittee meets to hear testimony on the military 
services' fiscal year 2010 Operation and Maintenance (O&M) 
request. I thank our distinguished witnesses from each of the 
military services for appearing before the subcommittee today 
to discuss funding for the services' readiness programs.
    The Operation and Maintenance account is the single largest 
component of the Department of Defense's (DOD) annual budget 
request. The military services' O&M accounts provide funding 
for such readiness areas as operating forces, mobilization, 
training and recruiting, and administration of service-wide 
activities.
    For fiscal year 2011 the O&M portion of the total budget 
request comprises $283.1 billion. The fiscal year 2011 total 
O&M request is $17.8 billion more than fiscal year 2010 
request. The fiscal year 2011 total O&M request is broken into 
$167.9 billion in the base budget and $115.2 billion for 
Overseas Contingency Operations (OCO). Almost 40 percent of the 
total fiscal year 2011 O&M request is for Overseas Contingency 
Operations.
    The 2011 total budget request will increase the military 
services' O&M account by $15.2 billion over fiscal year 2010. 
Army and Marine Corps forces continue to deploy to Afghanistan 
and Iraq at the highest levels of readiness, but this readiness 
comes at the expense of non-deployed forces, whose people and 
equipment are needed overseas.
    Repeated deployment with limited dwell time continues to 
reduce the ability of the forces to train across the full 
spectrum of conflict. However, the Army and Marine Corps are 
beginning to experience small increases in time at home 
stations as forces withdraw from Iraq. The fiscal year 2011 
budget reflects this positive development by providing 
increased training funds for each of the services.
    At the same time, however, Navy and Air Force readiness 
levels, which throughout the wars have remained relatively 
steady, are declining due to strains on people and equipment. 
The Navy has more than 12,000 sailors deployed ashore in the 
Central Command areas of operations, where the Air Force has 
more than 6,600 people supporting the Army and Marine Corps. 
With the Army and Marine Corps heavily engaged in Afghanistan, 
this development in Navy and Air Force readiness is troubling, 
as it increases the risk to national security if our military 
had to quickly respond to emerging threats.
    The fiscal year 2011 request provides funding to continue 
to support reset of equipment damaged or worn out through nine 
years of constant operations. The Army and Marine Corps 
together would receive more than $8.4 billion for equipment 
reset in fiscal year 2011. But I remain concerned that so much 
of the Army's and Marine Corps' depot maintenance budgets, 
upwards of 80 percent, is still funded through the OCO request. 
At some point depot maintenance funding must migrate back to 
the base budget.
    The fiscal year 2011 budget request increases funding for 
both Army and Marine Corps pre-positioned stocks. This is 
equipment that is situated throughout the world for quick 
access and movement to emerging theaters of operation. While 
the current budget plan shows the Army and Marine Corps 
resetting all the pre-positioned stocks by 2013, my theory is 
that the budgetary pressures and other priorities will continue 
to drive the timeline farther to the right.
    The Navy's fiscal year 2011 ship maintenance budget of $7.4 
billion shows improvement over fiscal year 2010 level when the 
Navy had an unfunded requirement of almost $400 million. But 
pressures remain on the Navy O&M budget. This is evidenced by 
fiscal year 2011 unfunded ship maintenance requirements of $35 
million, which the Navy noted is driven by current United 
States Central Command (CENTCOM) demand.
    The budget for Naval flight operations will increase by 
more than $875 million in fiscal year 2011, but almost half of 
this growth is inflationary rather than real programmed growth. 
Shortfalls remain in the Naval flight operations account, which 
shows a $423 million unfunded aviation spares requirement in 
fiscal year 2011.
    The Air Force, too, is experiencing shortfalls in its 
flying hours program. The fiscal year 2011 Air Force O&M total 
budget request of $60.1 billion for active, reserve, and Air 
Guard represents 7.3 percent increases over fiscal year 2010. 
But inflation and cost growth account for approximately $2 
billion of the increase, and fuel price increases alone account 
for $1.1 billion of the increase in the base and $500 million 
of the increase in the OCO. The Air Force number one priority 
on its unfunded requirement list is weapons systems sustainment 
at $337 million.
    In light of these budgetary realities, what the 
subcommittee needs to hear from our witnesses today is where 
each of your services is taking risk in this budget request in 
terms of impact on readiness.
    Before I turn to my colleague from Virginia, I will also 
note that fiscal year 2011 budget continues the insourcing 
initiative the Department of Defense began in fiscal year 2010. 
In fiscal year 2011, the four services will insource more than 
22,000 positions now held by contractors. The department 
estimates that it will save more than $1 billion through these 
efforts.
    This comes at a time when we have learned that the 
commander of the Army Training and Doctrine Command (TRADOC) is 
concerned about the loss of competencies and functions. TRADOC 
has decreased in size by 7,300 military positions and 4,500 
Army-civilian positions since September 2001, while the average 
daily workout requirement has steadily climbed.
    To address this shortfall, TRADOC has employed more than 
9,000 contractors, resulting in what TRADOC commander termed a 
de-greening of the TRADOC force. All of the services express 
similar concerns regarding the loss of competency among their 
acquisition work.
    The chair recognizes the distinguished and good friend from 
Virginia, Mr. Forbes, for any remarks that he would like to 
make at this time.
    Mr. Forbes.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 41.]

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
      VIRGINIA, RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Mr. Forbes. Mr. Chairman, thank you so much for holding 
this hearing. And with your permission, I would like to waive 
my opening statement, because I am going to use my time for my 
questions, because I have a few more than I would normally 
have, and just like to request permission to have my opening 
statement made a part of the record.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 46.]
    Mr. Ortiz. Our witnesses today are four distinguished 
military leaders.
    And thank you so much for your service to our country and 
your dedication in keeping America free and strong today.
    We have General Peter W. Chiarelli, Vice Chief of Staff of 
the Army.
    General, thank you so much for joining us today.
    Admiral Jonathan W. Greenert.
    Admiral, good to see you again, sir.
    And General James F. Amos, Assistant Commandant of the 
Marine Corps, and General Carrol H. Chandler, Vice Chief of 
Staff of the Air Force.
    Thank you so much for joining us today, and thank you for 
giving us the input you are going to give us today as what we 
need to do to keep our readiness where it belongs.
    General Chiarelli, you may begin whenever you are ready, 
sir.

STATEMENT OF GEN. PETER W. CHIARELLI, USA, VICE CHIEF OF STAFF, 
                           U.S. ARMY

    General Chiarelli. Chairman Ortiz, Ranking Member Forbes, 
distinguished members of the subcommittee, I thank you for the 
opportunity to appear here today to discuss the readiness of 
the United States Army as it relates to our fiscal year 2011 
operations and maintenance, or O&M, budget request. I have 
submitted a statement for the record, and I look forward to 
answering your questions at the conclusion of my opening 
remarks.
    As all of you know, these are challenging times for our 
nation's military. Over the past eight-plus years with the 
tremendous support of Congress and this committee, we have 
deployed the best manned, equipped, trained and led forces in 
the history of the United States Army. However, the fact 
remains we have asked a great deal from our soldiers and their 
families, and we are continuing to ask a great deal from them 
today.
    Demand on our forces remains high. Even with savings from 
the planned draw down in Iraq, the current level of demand does 
not appear likely to improve significantly for the foreseeable 
future. We must continue to work together to ensure all 
soldiers from both our active and reserve components and their 
families are properly cared for and have the training, 
equipment, and resources they need to accomplish their mission 
now and into the future.
    The Army's fiscal year 2011 budget request wholly supports 
this--our fiscal year 2011 budget base and OCO requests $107.3 
billion in operations and maintenance funding, a $7 billion 
increase in fiscal year 2010. This growth reflects increases in 
pricing and inflation, migration of funding for enduring 
missions from OCO into the base, the need for new 
infrastructure in Afghanistan, as well as the significantly 
higher cost of transportation and in-theater maintenance in 
Afghanistan as compared to Iraq, and finally, the additional 
funds needed to restore balance across our force.
    We are confident this funding will enable us to accomplish 
our mission at home and abroad to care for our soldiers, 
civilians and family members, and adequately man, equip and 
train our force.
    That said, we all recognize an uncertain world--and there 
is always the possibility that circumstances may change 
unexpectedly and dramatically--if so, we will work very closely 
with Congress and the Department of Defense to make any 
necessary adjustments.
    I assure the members of the subcommittee that I and the 
Army's other senior leaders are aware of the severe economic 
challenges facing our nation. We remain diligent in our efforts 
to be good stewards of the scarce taxpayer dollars and to find 
efficiencies and cost savings whenever and wherever possible 
while allocating available funds most cost effectively and 
responsibly.
    Mr. Chairman, members of the subcommittee, I thank you 
again for your continued generous support and demonstrated 
commitment to the outstanding men and women of the United 
States Army and their families. I look forward to answering 
your questions. Thank you.
    [The prepared statement of General Chiarelli can be found 
in the Appendix on page 47.]
    Mr. Ortiz. Thank you, sir.
    Admiral Greenert.

  STATEMENT OF ADM. JONATHAN W. GREENERT, USN, VICE CHIEF OF 
                  NAVAL OPERATIONS, U.S. NAVY

     Admiral Greenert. Chairman Ortiz, Ranking Member Forbes 
and distinguished members of the Readiness Subcommittee, it is 
my honor to appear before you to testify on the readiness of 
our Navy.
    Naval operations are often one component of the Joint 
Force, so accordingly, it is my privilege to address the 
committee alongside my fellow service vice chiefs and the 
Assistant Commandant of the Marine Corps.
    Today we remain engaged in supporting operations in 
Afghanistan, Iraq, and all the other combatant commander areas 
of responsibility. We have over 120 ships deployed. That is 
more than 40 percent of our fleet providing presence in every 
region of the world.
    Within hours of the earthquake in Haiti, we mobilized the 
aircraft carrier Carl Vinson and quickly thereafter the Bataan 
Amphibious Ready Group, and three ships and their supporting 
forces were dispatched only 34 days after they returned from a 
6-month deployment to the Central Command. Our hospital ship, 
USNS Comfort, which arrived home this week, deployed into Haiti 
and completed over 800 major surgeries and tended to over 1,000 
patients. Our commitment to the Fleet Response Plan made this 
timely and effective response possible.
    During the past eight years, resourcing our Navy in a high 
demand operational environment has been challenging, to say the 
least. The Congress has been incredibly helpful by supporting 
our budget requests as well as providing Overseas Contingency 
Operations funds or similar supplemental funding. However, high 
operational tempo, a reduced turnaround ratio, and reduced 
dwell continue to increase risk to fleet readiness, our force 
structure, and our personnel.
    As we look to the future, we must holistically balance our 
combatant commander requirements against our global force 
management. We have to transition from a supplemental resource 
dependency more toward a baseline budget resource that includes 
fiscal support necessary to meet those Combatant Command 
(COCOM) demands outside of Operation Iraqi Freedom and 
Operation Enduring Freedom. And we refer to this transition as 
our new normal.
    To properly fund our new normal level of operations, we 
have increased our base budget O&M request by about six percent 
compared to last year. And we respectfully request the support 
of the Congress to fully fund our O&M base budget request and 
to fully fund our OCO request to support the current and the 
near-term operations in the Central Command.
    Naval ships and aircraft are capital-intensive forces. They 
are procured to last for decades. Routine maintenance, depot 
level maintenance, and repair replacement of the stressed force 
structure are key elements in this reset of our force.
    We refer to maintenance between deployments as reset in 
stride, and it enables timely rotational deployment of the 
ships and aircraft. It provides forces ready for surge 
operations, such as Operation Unified Response in Haiti, and it 
translates into decades of readiness for each ship and 
aircraft, which is a pretty good return on investment.
    The stress of eight years of consistently high operations 
tempo can be debilitating to the sailors, Navy civilians, and 
their families, so it is incumbent on us, the leadership, to 
monitor the morale, the health and the tone of the force, and 
for us to act accordingly.
    Our budget request for sailor family readiness programs 
enhances our support to our sailors, our Navy civilians, and 
their families, particularly those wounded, ill, or injured. 
And we do this through expanded fleet and family support 
centers through our Navy Safe Harbor Program and the 
Operational Stress Control Program.
    Our Navy child and youth programs provide high-quality 
educational and recreational programs for our Navy children, 
and in particular we are leveraging military construction, the 
American Recovery and Reinvestment Act funding that you have 
provided, commercial contracts, and military certified in-home 
care to expand and increase our childcare.
    I submit that readiness is a function of capable forces 
with sufficient capacity that are ready for tasking. The return 
on investment in our Fleet Response Plan is measured by our 
ability to deliver the required capabilities and rotational 
deployments and simultaneously to be able to respond to the 
emerging needs of the combatant commanders.
    Our readiness budget request enables this return on 
investment, and I ask for your continued support. I thank you 
for your unwavering support and commitment to our sailors, our 
Navy civilians, and their families, and I thank all of you for 
what you do to make our Navy an effective and an enduring 
global force for good. I look forward to your questions. Thank 
you.
    [The prepared statement of Admiral Greenert can be found in 
the Appendix on page 61.]
    Mr. Ortiz. Thank you, Admiral.
    General Amos.

 STATEMENT OF GEN. JAMES F. AMOS, USMC, ASSISTANT COMMANDANT, 
                       U.S. MARINE CORPS

     General Amos. Chairman Ortiz, Ranking Member Forbes, and 
distinguished members of the subcommittee, thank you for the 
opportunity again to report on the readiness of your Marine 
Corps. On behalf of the more than 239,000 active and Reserve 
Marines and their families, I would like to extend my 
appreciation for the sustained support Congress has faithfully 
provided its Corps.
    As we begin this hearing, I would like to highlight a few 
points from my written statement. Within the CENTCOM theater of 
operations, we have successfully completed a responsible draw 
down of all Marines in Iraq. After seven years of sustained 
combat operations and nation building, our work in Iraq's Anbar 
province is done. With the exception of our training teams and 
support to higher headquarters staff, 100 percent of our 
Marines and 100 percent of our equipment have left Iraq.
    As we sit in this hearing room today, more than 27,000 
Marines remain deployed across the globe supporting Overseas 
Contingency Operations, security cooperation activities, and 
exercises. Specifically, your Corps has oriented its principal 
efforts towards Afghanistan. To date we have almost 17,000 
Marines and sailors on the ground in the Helmand province, 
growing to a force size of 19,400. We will close the units of 
the surge force by the end of April.
    All of our forward deployed units are manned, trained, and 
equipped to accomplish their assigned missions. These units 
continue to report the highest levels of readiness for those 
missions.
    For the past eight years we have been fully engaged in 
winning in combat operations as part of the generational 
struggle against global extremism. As I testified last year, 
this sustained effort and performance has not come without cost 
to the institution, to our equipment, to our strategic 
programs, and most importantly, to our Marines and to their 
families.
    Equipment readiness of our non-deployed units is of great 
concern to our senior leadership. We have taxed our home 
station units as the bill payers to ensure that Marines in 
Afghanistan and Marines in our Marine Expeditionary Units have 
everything that they need. As a result, the majority of our 
non-deployed forces are reporting degraded material readiness 
levels. This degraded state of readiness within our non-
deployed forces presents risk to our ability to rapidly respond 
to other unexpected contingencies around the globe.
    The tempo of operations and the harsh environments that we 
have been operating in since 2003 have accelerated the wear and 
tear on our equipment. Necessarily, the diversion of equipment 
in theater from Iraq to Afghanistan has delayed reset actions 
at our logistics depots in the United States. Our current 
estimate of the cost of reset for the Marine Corps is $8 
billion.
    Additionally, validating the lessons learned from eight 
years of combat has necessitated that we update and improve the 
way we equip our units. The cost for these changes to our 
equipment sets is estimated to be an additional $5 billion.
    Money to reset and to rebuild the Marine Corps will be 
required for several years after the end of the war. I ask for 
your continued support and funding as we rebuild our nation's 
Marine Corps. With your steadfast support, we will succeed in 
current operations, take care of Marines and their families, 
reset and modernize our equipment, and training the Marine air 
ground task forces for the challenges of the future.
    We will continue to stand ready as the nation's 
expeditionary force in readiness to do whatever she requires of 
us. I thank each of you for your faithfulness to our nation, 
and I request that my written statement be accepted for the 
record. I look forward to your questions.
    [The prepared statement of General Amos can be found in the 
Appendix on page 76.]
    Mr. Ortiz. Thank you, sir. All the written statements will 
be included for the record.
    General Chandler, sir, good to see you, sir.

   STATEMENT OF GEN. CARROL H. CHANDLER, USAF, VICE CHIEF OF 
                     STAFF, U.S. AIR FORCE

     General Chandler. Good to see you, sir. Mr. Chairman, 
Congressman Forbes and distinguished committee members, thank 
you for the opportunity to represent your Air Force before the 
committee today.
    I am proud to be here also with my joint teammates, but let 
me begin by saying that your 680,000 strong United States Air 
Force--active duty, Guard, Reserve, and Department of Defense 
civilians--is ready to execute our mission. Our readiness is 
demonstrated every day as we serve alongside our joint and 
coalition partners in Iraq, Afghanistan, and around the world. 
On any given day there are approximately 40,000 deployed airmen 
providing close air support, tactical and strategic airlift, 
intelligence, surveillance, reconnaissance, and combat search 
and rescue, along with other combat and combat support 
functions.
    Of these 40,000 airmen there are approximately 5,300 
providing joint expeditionary taskings, providing combat and 
combat support functions with Army and Marine Corps units in 
Afghanistan and Iraq. In addition to our deployed presence, 
more than 131,000 airmen are performing deployed in place 
missions supporting combatant commanders. These airmen are 
operating remotely piloted vehicles, maintaining satellite 
constellations, conducting inter-theater airlift, and 
maintaining our nuclear deterrence posture.
    Additionally, the Air Force continues to provide defense of 
the homeland as a total force effort involving Guard, Reserve, 
and active duty personnel from locations around the United 
States.
    Stabilizing our end strength is a critical part of 
maintaining personnel readiness. The Air Force met its goals 
for new accessions and retaining our current experience in 
nearly every area. Our retention rates are at a 15-year high, 
and we are generally exceeding our goals by about 20 percent. 
Only health professionals fail to meet retention and recruiting 
goals, and there are efforts under way to mitigate current 
shortfalls.
    Selected retention bonuses remained our most effective 
retention tool and these bonuses, along with critical skills 
retention bonuses for officers, are successfully targeting 91 
enlisted and three officers specialties.
    Last June the Air Force initiated the Year of the Air Force 
Family, and more than halfway through this effort we are on 
course to eliminate the known childcare deficit in our child 
development centers by the year 2012. We are increasing spouse 
employment referral assistance, and we have added 54 school 
liaison officers to assist school transition for almost 175,000 
school-age Air Force dependents.
    We are improving our Exceptional Family Member Program, 
which supports more than 15,000 airmen with special needs 
family members. We are also increasing the quality of programs 
providing deployment and reintegration support for our airmen 
and their families.
    Our aircraft are well-maintained and ready, although our 
aircraft inventory is seeing extensive use in contingency 
operations, and the fleet's average age continues to increase. 
I would tell you the dedicated work and professionalism of our 
airmen ensures that we are always ready.
    Our combat Air Force aircraft continue to provide global 
power when and where it is required. Our airlift fleet 
continues to provide strategic airlift as well as theater and 
direct support airlift missions, moving personnel, and a wide 
variety of equipment and supplies.
    The recent release of a KC-X request for proposal began the 
process of re-capitalizing our aerial refueling capability, and 
the planned acquisition of 175 KC-X aircraft will help provide 
refueling capability for decades to come.
    The nation's nuclear aircraft and intercontinental 
ballistic missiles (ICBM) remain the highest priority of our 
service. Of all the missions the Air Force accomplishes every 
day, none is more critical than providing nuclear deterrence. 
Intercontinental ballistic missile crews sit nuclear every day, 
and nuclear capable and bomber and fighter crews and their 
weapons systems contribute to our deterrence posture.
    Mr. Chairman, the Air Force will continue to provide our 
best military advice and stewardship, delivering global 
vigilance, reach, and power for America. I thank you for your 
continued support for our Air Force and particularly for our 
airmen and their families. And I look forward to your 
questions.
    [The prepared statement of General Chandler can be found in 
the Appendix on page 92.]
    Mr. Ortiz. Thank you so much. You know, as we look around 
the globe, I have never seen so many hotspots like I have seen 
lately, not only around the world, but right in our backyard, 
as we know what is happening across the border with all of the 
killings and cartels and drug trafficking. So we have got a 
challenge ahead of us.
    But what readiness--and this is for all the witnesses who 
are with us today--what readiness challenges do each of your 
services face in fiscal year 2011, and in what areas are each 
of your services taking risk in fiscal year 2011 O&M budget 
request? And what impact has the increased price of fuel had on 
your ability to meet readiness requirements? And maybe you can 
give us a little input from each respective service.
    We can start with you, General Chiarelli.
    General Chiarelli. Well, Mr. Chairman, 2011 is definitely a 
transition year for the United States Army. That is the year 
that we see ourselves getting back into balance, and we define 
balance as 12 months deployed, 24 months or greater at home. 
And that is the interim goal for us in 2011 to get there.
    There will be some military occupational specialties, some 
soldiers that will reach sooner, and there is no doubt in my 
mind that there are some soldiers--to give you an example, our 
aviation soldiers, who will probably reach it later. Currently, 
our aviation is flying at about one-to-one.
    So the biggest risk for us after eight and a half years of 
war is if something were to happen that would not allow us to 
get that balance, because the force has been moving very, very, 
very hard for a long period of time.
    We are very, very happy with what we see happening in Iraq. 
The elections were successful. We expect to start seeing some 
of those soldiers returning home soon, and we believe that is 
going to be a big step forward in moving us toward reaching 
that critical balance by 2011.
    Mr. Ortiz. Admiral.
    Admiral Greenert. Thank you, Mr. Chairman. In order to talk 
challenge in 2011, I need to go to 2010 first and talk risk. 
Right now our risk in fiscal year 2010 is unfunded Central 
Command operational tempo, about $450 million, fuel prices 
increase in 2010 about $250 million, and what we call request 
for forces, emergent requests by the combatant command, and the 
meeting of that in 2010. It is about $150 million.
    And the risk is dealing with that in 2010, mitigating that 
within the 2010 budget and having what we call bow wave effect 
over into 2011. So that is our first challenge, to be able to 
mitigate those things in 2010, deal with it so that the 2011 
budget, as we submitted to you, stands on the basis of the 
readiness in 2010, meeting the readiness requirements of 2010.
    Looking at fiscal year 2011, I think our first challenge is 
meeting the execution requirements by the combatant commanders 
that are put before us, and that is outside of what we call the 
new normal. It is outside of Operation Iraqi Freedom, outside 
of Enduring Freedom. It is Southern Command, and it is the 
Pacific Command and the emergent requirements therein.
    In our budget, as a result of the Quadrennial Defense 
Review (QDR), we are going to take on a ballistic missile 
defense mission around the world. That is a challenge. We think 
we have it right, but it will be a challenge that we have to 
meet. It is a new challenge.
    We have increased inter-theater lift requirements in our 
shipbuilding account in the Joint High Speed Vessel--that will 
be a challenge for us--and in irregular warfare.
    As I have mentioned in my opening statement, our risk is 
that we are unable to articulate our budget and get it 
authorized and appropriated in the amount we ask. That is a six 
percent increase so that we can see to it that having worked 
hard and really scrubbed our ship maintenance budget and our 
operation accounts, that we can execute those as we need to to 
meet the expected service life of our ships.
    We need to reset the force, sir. And we need to, I think, 
come to grips with that sooner than later. So thank you for the 
opportunity to comment.
    Mr. Ortiz. Thank you, sir.
    General Amos.
    General Amos. Chairman, there is much goodness in the 2011 
budget. It has helped us with certainly the current fight, 
taking care of our Marines and families, protecting our end 
strength, allowing us to focus on irregular warfare, and to 
some degree preparing for the future.
    But there are concerns, and it is primarily as it deals 
with reset and modernization--reset, of course, being the 
factor of replacement of a worn-out vehicle with a similar 
vehicle. Modernization is a little bit of that, but also 
looking into the future and moving up in generations of 
equipment and capabilities. So that is a concern of ours.
    We have tried to mitigate that and articulate that 
requirement through this what we call the lessons learned. What 
did we learn from seven years of combat--and I talked about it 
in my opening statement--and trying to take those kinds of 
lessons learned and what does that mean to our table of 
equipment? What does that mean to modernization in 
capabilities?
    There is no money in the budget to do that right now. So 
what we are finding is our equipment is being worn out in those 
harsh conditions, and the extreme usage of that forward 
deployed, our home station readiness is, as I said in my 
statement, is suffering. We are running roughly about 60 
percent of the supply readiness--in other words 60 percent at 
home of what we should we have. That that is home is in good 
shape, but there is just less of it to spread around for 
training and less of it to go to another contingency.
    So that pressurizes what we call our procurement accounts--
in other words the ability for the procurement side of the 
Marine Corps to say, okay, we need to modernize. Let us invest 
into this. That pot of money is decreasing remarkably, and so 
we have less discretion to be able to buy those kinds of things 
to modernize the Marine Corps.
    So we find ourselves doing what our nation wants us to do, 
almost wearing out our equipment back home to a point where we 
are not completely convinced we are going to be able to 
modernize it without the help of Congress.
    Mr. Ortiz. General Chandler.
    General Chandler. Sir, you know that in our base budget we 
funded weapons systems support at 65 percent. We certainly 
appreciate your support for the OCO increase that allows us to 
get to approximately 82 percent. That is why our number one 
unfunded priority in the Air Force is weapons systems 
sustainment for another $337 million to allow us to fund 
weapons systems sustainment at 85 percent.
    The risk we take as we do that is about a $2 billion risk 
from $13.4 billion down to about $11.4 billion. In that risk is 
depot level maintenance for aircraft and engines, as well as 
contractor logistic support and a few other items, to be 
specific.
    We are also the largest user of petroleum products in the 
department, so when we talk about the price of oil, for every 
barrel of oil, the cost, you can add approximately $8 to $10 to 
get the price of a barrel of JP-8.
    We continue to look for ways to conserve. We have looked at 
how we convert our fleet from 50 percent synthetic and 50 
percent petroleum fuels. By the end of 2011, we will have all 
of our aircraft certified with a 50-50 mix of petroleum itself. 
But those kinds of expenses are the things that compete with 
the weapons systems support things that I talked about earlier.
    We are in the same position as the other services in terms 
of modernization and re-capitalization. The pressures that I 
have described, and what is weapons systems sustainment and 
fuel costs, tend to eat up O&M and other funds that would allow 
us to pursue modernization and recapitalization. So, again, we 
are in the same situation as the other services as well.
    And that then leads us to how we are dealing with some of 
our aging aircraft issues and the vicious cycle, then, of the 
weapons systems support money that has to go back in there that 
will prevent you, then, from being able to recapitalize the 
fleet where you need to. Thank you.
    Mr. Ortiz. You know, one of the things that concerns me the 
most is the escalation of the prices that we pay for the 
equipment. If I understand correctly, during the first Desert 
Storm, Desert II war, we were paying something like $40,000, 
$50,000 for the High Mobility Multipurpose Wheeled Vehicles 
(Humvees). Now, eight, nine years later, they tell me that is 
around anywhere from $350,000 to $450,000 per vehicle. Of 
course, we are putting more protection to protect our soldiers, 
but that is a heck of an expensive item, and everything seems 
to be going up, up, up.
    And we do have a caring committee here. They want to do 
what is best for you and our young men who are out there, you 
know, in harm's way. But this escalation of prices, you know, 
and now they came up with a profit and not-for-profit, you 
know, budget request. Well, I am thinking that some of the big 
companies we deal with, that you have to deal with, are for-
profit, unless I am mistaken, otherwise they wouldn't be in 
business.
    But this really concerns me, and I don't know how to 
address this, to be honest with you. And you can only do with 
what we give you, so you are kind of handcuffed. I mean, what 
can I do? I only got so much money from the Congress. But we 
want to work with you and future conflicts, and I think of each 
of you touched on future conflicts in case something develops 
around the world.
    I mean, we are in a heck of a predicament. What are we 
going to do? Our soldiers are tired, many deployments. Even 
though we are coming back, downsizing in Iraq and bringing some 
of our young men back, but it is a problem. And I don't know if 
whether you want to touch on what I just said, but if not, I 
will just yield to my good friend for questioning.
    General Amos. Chairman, that is the dilemma. It is the cost 
of equipment. The average cost of a Mine Resistant Ambush 
Protected Vehicle (MRAP), for instance, is $750,000. It topped 
out at about a million. The least expensive is about $500,000. 
We are looking right now at vehicles that we could replace the 
25,000 Humvees that we have, or at least a portion of the 
25,000 Humvees we have, that would give us greater mobility and 
give us a higher level of protection than a flat bottom Humvee 
and up-armored Humvee, but yet not break the bank.
    We are looking at those vehicles, and I am hearing reports, 
and there has certainly not been any selection. I am hearing 
reports of $100,000 for a vehicle to replace the Humvee. So, I 
mean, this is a dilemma we face, and each one of those things 
with a finite amount of latitude in procurement and 
modernization accounts. This reduces the amount, the sheer 
amount of vehicles in our case or pieces of equipment that we 
can buy. You are absolutely correct.
    General Chiarelli. Mr. Chairman, I share your concern. And 
one of the projects we are currently working on is a series of 
portfolio reviews. If you take any single system and look at it 
individually, you can make a pretty strong argument that it is 
required. But if you take and look at them in a portfolio of 
common systems--example, precision munitions--you will find 
that there are probably systems that we have, at least the 
United States Army has made, precision that don't need to be 
precision or don't need to be at the numbers that we bought 
them at.
    And we see the opportunity here for some efficiencies--not 
that precision isn't important, but does that mean that every 
single system has to have a precision component to that? And I 
would argue that is not the case.
    And the other issue with precision munitions is the cost. 
You take a round for a 155-millimeter cannon, what we would 
call a dumb round, $650 apiece. If you go ahead and make that a 
precision round--it will get inside 10 meters circular error 
probable--you are looking over the life of that round about 
$78,000 apiece.
    So it is time we think in the Army that we step back and 
look with an understanding that this is an important capability 
to have, but wherever we can, look at these systems in a 
portfolio and seek where we might not be able to find 
efficiencies.
    Mr. Ortiz. If we don't have any other input, let me yield 
to my good friend from Virginia, Mr. Forbes.
    Mr. Forbes. Mr. Chairman, thank you, and thank you for 
holding this hearing.
    And, gentlemen, you probably heard at the outset I waived 
my opening statement so that I could spend just a little bit 
more time on my questions. And I want to begin by saying that 
all of you are good men, and you serve with good men and women. 
I serve with good men and women up here, but sometimes even 
good men and women can make bad decisions, and that is why we 
have to have these hearings and we have to ask these questions.
    And I want to begin my questioning, Admiral, with you, if 
you don't mind. I want to start by saying that you and I had 
the opportunity last week to sit down and talk, and I 
appreciate that opportunity. And I told you then I was going to 
give you the questions, and I gave you the questions. I said 
this is an open book exam. This is not to blindside anybody, 
and I want to tell you how much I respect you and your service 
to our country and what the Navy does.
    But I also told you I had some concerns, because we have 
been asking some questions that the Navy hasn't been responding 
in their questions. One of the things that I mentioned at the 
meeting that we had was we were very concerned last year when 
we didn't receive the shipbuilding plan that the law required. 
And we didn't receive it based on the statute, but then when 
the entire Armed Services Committee through a congressional 
inquiry voted unanimously to ask for it, we still didn't get 
it.
    When we finally got the shipbuilding plan, there were some 
discrepancies between the Congressional Budget Office numbers 
and between the plan itself. And I don't want to talk about the 
plan today. I want to just tell you that the other thing that 
happens to us oftentimes is for me to get folks in here, 
whether it is the chairman of the Joint Chiefs or whether it is 
your boss, the Chief of Naval Operations (CNO), there is kind 
of a game.
    And I am not saying they play a game, but it is a game that 
goes on. It is called ``Beat the Clock,'' because we only have 
5 minutes to ask questions, and oftentimes that 5 minutes goes 
by very, very quick, and sometimes the question we ask doesn't 
get answered, and there is no follow-up.
    So today the clock is off--no shot clock. We don't have to 
run it down. Open book test. If you need time, you got your 
staff here. We will give you a lifeline. Call the CNO, whoever 
you want. If I don't phrase the question right, stop me, 
because it is not my intention to blindside you or to put 
anything out on the table. The only thing I ask you not to do 
is please don't say you will get back to me, because I don't 
ever get anybody get back to me when we ask that.
    And so I want to begin with the question I told you I was 
going to ask you. It is about Mayport and about shifting a 
carrier from Norfolk to Florida. And I start with the 
Environmental Impact Statement (EIS), which I know you have 
read, and I am not going to ask you if you have read it, 
because I know that you have, and I know you have studied it in 
preparation, hopefully, for this hearing.
    But I want to read to you what that EIS concluded. It said 
the rationale for moving that carrier was this. ``Distribution 
of CVN homeport locations to reduce risk to'' and then it said, 
``fleet resources in the event of natural disaster, man-made 
calamity or attack by foreign nations or terrorists.'' Then the 
next subheading said, ``Carriers, industrial support facilities 
and the people that operate and maintain these crucial 
assets.''
    Now, Admiral, since you are the Vice Chief--you are right 
under the CNO--I want to start with the one that says natural 
disasters. And I want to walk through that. And first of all, I 
want to say I think you and I can agree that as to Norfolk and 
Jacksonville, we are not worried about earthquakes 
particularly. At least, we haven't had any in any of our 
lifetimes or our grandparents' or great grandparents' 
lifetimes. We are not really worried about a tornado hitting 
there to do that kind of damage, so we are worried about, first 
of all, hurricanes.
    And I want to put up a slide up here. It is slide number 
one. And if you can't see it, Admiral, I will have one of my 
staff members put a poster up here closer to see it. So can you 
see that okay, or do you want them to put a----
    Sam, can we have a poster put up closer to the Admiral just 
so that he can see what we are all looking at up here?
    This is from the EIS, and it says that for hurricane risk, 
no advantage between Norfolk and Mayport. And then Admiral 
Roughead, when he testified, and again it was right at the 
last-second buzzer going off, so I didn't get to follow up, he 
said they are very, very similar. Mayport fares quite well.
    [Slide one can be found in the Appendix on page 105.]
    Mr. Forbes. And now I am going to ask you if we can put up 
slide two. And to the right, with all of those lines, is 
Jacksonville. To the left is Norfolk. These are hurricanes from 
1851 to 2005.
    Now, Admiral, I want you to just tell me how you can say--
because when they put these slides up, everybody always laughs. 
My staff laughs, and they say how in the world you can say you 
are going to disregard hurricanes? But can you tell me today 
how you can say, looking at those two slides as to hurricanes, 
there is no disadvantage to Jacksonville over Norfolk?
    And again, I told you I was going to put this slide up, so 
it is not a blindside for you. Here it is.
    [Slide two can be found in the Appendix on page 106.]
    Admiral Greenert. Thank you for that question, Congressman, 
and for the opportunity to comment. The timeframe that we 
looked at and slides that I looked at in the study--here we 
have 200, roughly 200, 150-plus years, 155 years--in the most 
recent history I looked at, I found somewhere between, over the 
last 15 years, it was statistically insignificant--that is, the 
number of hurricanes in Jacksonville, Mayport area versus 
Virginia.
    This, as one zooms in and you look at the lines crossing 
here--it is difficult for me to do when I zoom in to Mayport--
but I would say just optically, I can't tell that it is all 
that much. Florida certainly has an issue, but I don't know 
that Mayport is that much different. I can't tell right now. I 
would have to go count the lines.
    But we looked at this from a risk, risk equaling, if you 
will, the probability times the consequences. And the 
consequences of a storm or a natural disaster far and away we 
deem to be very significant factor in determining this 
strategic homeporting. And we look at it not as a matter of if 
Mayport or Norfolk, but both, that we think it is important 
that we have a carrier in both ports, because the consequences 
are that significant.
    Mr. Forbes. Now, Admiral, when you talk about the 
percentages, you couldn't tell as you zoom in on those lines--
you use National Oceanic and Atmospheric Administration (NOAA) 
as the basis for your probabilities and all when you looked at 
the EIS.
    I am going to ask that we put up slide three now to show 
you that NOAA just disagrees with your optical glance at that.
    [Slide three can be found in the Appendix on page 107.]
    Mr. Forbes. NOAA says it is a 75 percent greater risk in 
Jacksonville to be hit by a category four hurricane, which is 
the one that is most probable to do the kind of damage, 58 
percent greater for a category three, 47 percent greater for a 
category five. Admiral, I just in all due respect think that 
you can say hurricanes don't matter. I really don't think it is 
plausible to say that in this situation not a significantly 
greater opportunity that a hurricane is going to hit 
Jacksonville that it is going to hit Norfolk.
    I want to go to the next concern that you had in the EIS, 
though, where you talked about man-made calamities. And I guess 
one of the things you were worried about is the clumping 
situation of having carriers all together and some type of 
calamity that would hit.
    This chart--and again, I have got one closer for you to 
see--I guess we don't have the same concerns with our SSBNs, 
because we have only got one base for them in Kings Bay, 
Georgia, and one base in Washington in Bangor. Or maybe, I 
guess, we have to ask Congressman Dicks and Congressman 
Kingston. They had better be careful, because we are going to 
have to break those up. I guess we need to ask Congressman 
Larsen on the EA-6Bs in Whidbey Island, because they are all 
together. We might have to break those up. Or maybe we ask 
Chairman Skelton on the B-2s in Whiteman Air Force Base, 
because we have got those clumped together.
    [Slide four can be found in the Appendix on page 108.]
    Mr. Forbes. But I want to go again to your man-made 
calamities and put up slide five, so you can look at this. This 
is a to scale copy. And again, it may be hard for you to see 
the TV, but you can see from looking at the chart. These are 
the openings coming into Pearl Harbor, San Diego, and 
Bremerton, Washington. You can see they are about 1,100 feet 
shore to shore, 2,000 feet, 2,000 feet.
    [Slide five can be found in the Appendix on page 109.]
    Mr. Forbes. And then put up slide six, if you would.
    And in slide six, the one on the left to scale is Norfolk. 
The one on the right is Mayport, 1,000 feet shore to shore. 
This is the narrowest access, and I know you are well aware of 
that, being at Fleet Forces Command in Norfolk. It is 4,500 
feet from island to island.
    The shot on the right of Mayport, if I am bringing in a 
freighter, coming up it is right off the ocean. You know, when 
you are bringing up Norfolk, you got to come up the bay and 
then you got to make that turn to come up to harbor. If a 
freighter is going down that ocean and turns to come up that 
channel, what are you going to do? He won't respond to you, and 
he won't stop on the Mayport side.
    [Slide six can be found in the Appendix on page 110.]
    Admiral Greenert. One more time, you are talking about 
Mayport.
    Mr. Forbes. On the right, you look at that channel. It is 
only a thousand foot, and that is a thousand feet, not even the 
channel. That is a thousand feet from shore to shore. You bring 
a freighter up there, and all of a sudden the freighter turns 
to come up that channel. What do you do if he is not responding 
to you, and you don't know what is in that freighter?
    Admiral Greenert. Well, there are a number of consequence 
management. If the freighter is in the channel and the 
freighter--make sure I understand it. He is blocking the 
channel, you are implying?
    Mr. Forbes. Coming up the channel, but he won't respond to 
you, and you don't know what he has got in his ship. What are 
you going to do?
    Admiral Greenert. Well, there is a function of threat. If I 
knew of or expected a threat, we have various and sundry ways 
to do that. There are certainly rules of the road. There is a 
protection that, depending on the value of the unit that I am 
dealing with, I have Coast Guard protection as well and Coast 
Guard mandates and regulations.
    Mr. Forbes. If he rams that freighter in that channel or up 
against the shore, doesn't he block that channel from anybody 
getting in or out of that channel, as small as that channel is?
    Admiral Greenert. Depending on the angle, I guess it is 
feasible. When you say ``block,'' I would have to look at that 
angle of it. There are ways to remove the ships from that 
channel as well.
    Mr. Forbes. But it would take a while to do that, wouldn't 
it?
    Admiral Greenert. It might.
    Mr. Forbes. Yes, unlike the size of the channel in Norfolk, 
which you still have a number of ways of getting out.
    I also want to go back to what we talked about in here, the 
other one that you are concerned with--foreign nations. I take 
it we weren't concerned very much about the Soviets, because we 
didn't talk about moving the carriers during the Cold War. I 
would also assume we are not really worried about the Chinese, 
because we downgraded our intelligence priority on the Chinese 
now from priority one to priority two. So I would take it we 
don't view them as a great risk.
    But then you also have on here terrorists. In looking at 
the terrorist threat, how great do you think a terrorist threat 
is to the Hampton Roads area?
    Admiral Greenert. I am unaware of any terrorist threat to 
the Hampton Roads area any different from any other port that 
we have, so to say there is no terrorist threat would probably 
be inaccurate, but not necessarily different from the others at 
this time.
    Mr. Forbes. And if you moved a carrier, how would it reduce 
that terrorist threat?
    Admiral Greenert. What I do is I gain a relief of the 
consequences of any emerging or ultimately emerging terrorist 
threat. And we had two carrier ports during the Cold War. We 
had Mayport.
    Mr. Forbes. You have got actually five right now, though.
    Admiral Greenert. Only one on the East Coast, sir.
    Mr. Forbes. Yes, but you have got five.
    Admiral Greenert. Only one on the East Coast 12,900 miles 
away.
    Mr. Forbes. Okay. If you had to do work on one of those 
carriers--I will get back to that in a minute. Tell me how you 
remove the risk if I move one carrier out of the port.
    Admiral Greenert. Move one carrier to Mayport, you mean, 
sir?
    Mr. Forbes. How does that reduce the terrorist risk in 
Norfolk?
    Admiral Greenert. It doesn't remove the terrorist risk to 
Norfolk necessarily, unless they are compelled to target 
carriers alone.
    Mr. Forbes. Okay. How does it protect the carrier by having 
one homeported in Mayport?
    Admiral Greenert. Protect the carrier that I just moved to 
Mayport?
    Mr. Forbes. I am just going by your EIS, which says that 
you are moving it because you want to reduce the risk to 
carriers from terrorists.
    Admiral Greenert. By dispersing the force, then what I do 
is that is one way to, if you will, counter the terrorist 
threat, to disperse the force.
    Mr. Forbes. Thank you.
    Can we put up slide seven, please?
    You are aware, Admiral, that in the last 6 years you have 
only had five carriers together 34 days, right?
    [Slide seven can be found in the Appendix on page 111.]
    Admiral Greenert. It hadn't crossed my mind till you just 
showed me, Congressman.
    Mr. Forbes. But with only 34 days, a scheduling change 
could keep them from all being there together, too, couldn't 
it?
    Admiral Greenert. It depends on the time we do. We schedule 
our carriers. At times they are. We have a number of carriers 
in Norfolk periodically.
    Mr. Forbes. If we are focused on the risk there, and from 
terrorists and from foreign nations, and it sets a major risk, 
what is more important--protecting the 1.7 million people in 
the Hampton Roads area or protecting the carrier?
    Admiral Greenert. I want to make sure I understand the 
question.
    Mr. Forbes. Let me explain it real quickly. We got $1 
billion to spend, roughly. Spend $1 billion to move the carrier 
or $1 billion to beef up security in Hampton Roads against 
terrorist attacks and other attacks there? Why are you spending 
$1 billion to move the carrier instead of beefing up for the 
terrorist attacks?
    Admiral Greenert. Well, Congressman, we feel pretty 
comfortable right now about our numbers at about $590 million 
to move the aircraft carrier. We have looked at that 
extensively. I couldn't tell you what the cost is if you say to 
beef up the port against a terrorist attack, because that would 
depend on the threat and the level to which I needed to beef 
up, if you will, the force.
    Mr. Forbes. Well, I am saying that based on your EIS, you 
are saying that you are moving it to defend against terrorist 
attacks. And I am asking you if you think that is a substantial 
concern, why not spend that money to beef up and protect the 
1.7 million people living there?
    Admiral Greenert. The reason we are desiring to move the 
carrier is to preclude the consequences of a terrorist attack, 
not the threat of a terrorist attack to--and by dispersing----
    Mr. Forbes. Then tell me specifically the consequences that 
you are talking about--to the carrier?
    Admiral Greenert. To the force, to the carrier force, by 
having a strategic dispersal like we had in the Cold War, to 
your earlier point.
    Mr. Forbes. All right. Now, I want you to go back and look 
at what would happen. So you are concerned about the carrier, 
not about the industrial base around there. Is that correct?
    Admiral Greenert. Industrial base----
    Mr. Forbes. Around Norfolk. You are concerned about a 
terrorist attack on the carrier itself, correct?
    Admiral Greenert. I am not familiar with all of the details 
you are quoting in the EIS. You got me on that one, 
Congressman, so----
    Mr. Forbes. Okay.
    Admiral Greenert. But we are concerned about the 
consequences of a terrorist attack.
    Mr. Forbes. All right. Let me just ask you just a couple 
more follow-up questions, and I will be done.
    Explain to me--it says in the same EIS--it says every third 
maintenance availability would be conducted in dry dock at a 
nuclear capable shipyard. CVN nuclear propulsion plant 
maintenance manning would be approximately 50 people with no 
CVN maintenance that is being conducted, but it would increase 
by an average of 750 for a 6-month maintenance availability.
    Now, it is my understanding that each availability average 
is about 6 months, takes about 400 men to do it. Are you going 
to be having those men in Mayport, women, to do the work? Or 
are you going to have to move them to Norfolk to do the work on 
the availability that you have?
    Admiral Greenert. Docking availabilities will likely be 
done in Norfolk. That is where the docking, the carrier dock is 
located. As you know, we don't have that. What we call 
continuous maintenance, to the degree there is some nuclear 
maintenance involved, would be done in Mayport.
    Mr. Forbes. How often would you have the carrier in Mayport 
to do that continuous maintenance that you are talking about?
    Admiral Greenert. I would have to take that for the record, 
Congressman. I have to look at--it would depend on where that 
carrier is in its rotational cycle and its Fleet Response Plan 
and how long it has been since its last docking----
    [The information referred to can be found in the Appendix 
beginning on page 117.]
    Mr. Forbes. So you are saying all the maintenance, the 
availabilities would still be done in Norfolk?
    Admiral Greenert. When you said ``docking availabilities,'' 
that is where I believe they would be done in Norfolk. We have 
a, if you will, one shipyard approach. It would depend on the 
lifecycle of the carrier. It is where that carrier would go 
following its, in that case, overhaul. And it would be an 
extended overhaul, if I am going to dock it, as you are 
familiar with up there in Newport News. That would be the 
likely location.
    So if for a docking availability, more than likely yes. It 
would be in Norfolk area.
    Mr. Forbes. So if it is going to be in Norfolk, how have 
you reduced the risk when you are putting it in Norfolk 6 
months for each availability, and every 3 years it would be 
there for over 7 months to do the maintenance on it? How have 
you reduced the risk factor? I don't understand that.
    Admiral Greenert. A docking availability and an overhaul in 
a carrier is not done once every 6 months, every--I think you 
said--36 months. I would have to look at--it would depend on 
the carrier, its core life, and all of those. So I would have 
to get back to you and lay that out as to the likelihood of 
each of those.
    [The information referred to can be found in the Appendix 
beginning on page 117.]
    Mr. Forbes. Okay. Last question I want to ask you on that, 
and then I will move on. You told me that the--you answered, 
the chairman said, your biggest worry was the unfunded Central 
Command tempo that I think you said would be $400 million to 
$500 million.
    I want to put slide eight up here for you and ask you which 
do you worry about more, spending the $500-and-some million 
that you say it would cost, almost $600 million to move the 
carrier to Mayport, or doing the unfunded Navy requirements 
that are about $523 million? And I take it, if they are 
requirements, they are requirements to do the mission.
    [Slide eight can be found in the Appendix on page 112.]
    Admiral Greenert. I worry about the long-term strategic 
consequences of not having but one carrier port on the East 
Coast.
    Mr. Forbes. You think that is more important than the $523 
million of unfunded requirements that you have here?
    Admiral Greenert. I do. Yes, sir.
    Mr. Forbes. Okay. And you think that is more important than 
the unfunded requirements that your fellow vice-chiefs have 
down for the Marine Corps, the Air Force, and the Army.
    Admiral Greenert. I don't want to speak for them.
    Mr. Forbes. I am asking your opinion.
    Admiral Greenert. My opinion? I have what I have here, 
which is my concern for the strategic dispersal and the fact 
that I have one carrier homeport on the East Coast. We consider 
that a very high priority.
    Mr. Forbes. The last slide I will put up is slide nine, 
where there are a lot of people--this was Loren Thompson 
testifying before the Seapower Subcommittee, and he said, ``We 
are spending $4 billion a day in this government that we do not 
have, and meanwhile our share of global gross domestic product 
has fallen from 32 percent to 24 percent in one decade, so to 
spend that kind of money to get no additional gain in terms of 
military capability is bordering on scandalous.'' I happen to 
agree with him.
    [Slide nine can be found in the Appendix on page 113.]
    Mr. Forbes. Last question I am going to ask, and I 
apologize for taking so much time. This is an important issue 
to many of us.
    General--for all three generals--do any of you know what 
presumptions the QDR made with regard to force readiness? In 
other words did the QDR assume our forces would be 75 percent 
ready, C-1 or C-2, 85 percent ready, 100 percent ready? Do we 
have that information or not?
    General Chiarelli. We know for the Army, sir, and I believe 
all the forces that the QDR accepted the idea of a rotational 
base in our Army. We are looking at establishing that 
rotational base that has in it one corps, five division 
headquarters, 20 brigades, and 90,000 enablers with a strategic 
hedge in the trained ready force of approximately half of that.
    Based on going to a rotational way of providing forces to 
the COCOM commanders, we know we will have a portion of the 
force that will be in reset coming out of that rotation. It 
could be as high as a third to a quarter.
    Mr. Forbes. General Amos, do we know what basis that we 
assumed our forces would be on the QDR in terms of the 
readiness--what percentage?
    General Amos. Sir, to the best of my knowledge that I know 
of, I don't know of any presumptions in the QDR that said it 
assumed certain force readiness levels. I know when we 
participated in it, and the Marine Corps has never been a fan 
of what we call tiered readiness where you have those forward 
deployed forces that are what you would call 100 percent ready, 
and then you have the forces back home that are at a 
significantly less, and it becomes a bathtub, and you start 
working your way.
    We are forced into that right now by virtue of the current 
fight in Afghanistan, so no question about it. The forces that 
come home are at a probably what we would call C-3 or C-4 for 
readiness, and that could be equipment for sure back home. We 
know that for a fact. And then it will be personal turnover and 
some of the things that General Chiarelli is talking about.
    But I am unaware of an assumption, Congressman Forbes, of a 
specific readiness level as we went into the QDR.
    Mr. Forbes. General Chandler.
    General Chandler. Congressman, I am also not aware of any 
specific percentage. Our rotation is based on the Air 
Expeditionary Force, as you know. Those forces are trained and 
ready to go. We, like the Marine Corps, have been forced to a 
certain level of tiered readiness to ensure that those forces 
that go forward have the equipment they need and are properly 
trained.
    Mr. Forbes. Good. Thank you.
    And now I will just close by saying, if you would, get back 
to us if you do find out that there was an assumption in the 
QDR of any percentage of readiness. The only reason is we would 
like to know what that assumption was to make sure we are 
there, and we funded you up to there.
    Mr. Chairman, thank you, and I yield back.
    [The information referred to can be found in the Appendix 
beginning on page 117.]
    Mr. Ortiz. I will go to my good friend from Mississippi, 
Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    General Chiarelli, seeing as how this is an operational and 
maintenance hearing, I very much appreciate your efforts to get 
some MRAPs to the training installations. One of the things 
that one of the base commanders brought to my attention is that 
since a lot of these vehicles are being returned from Iraq, 
that they are going to need a significant amount of time for 
maintenance.
    Have you programmed back into possibly providing some 
additional MRAPs for training installations? And again, I will 
harp on home. Camp Shelby, to the best of my knowledge, is at 
any given moment training these 5,000 troopers to go to Iraq or 
Afghanistan--with 19 MRAPs. Now, that really doesn't seem to 
fit the standard of the Army, ``We train as we fight.'' And it 
takes nothing into account as far as the fact that some of them 
are going to be down on a given day.
    Given that a lot of that equipment is leaving Iraq and not 
all of it is suitable for the Afghan environment, you know, 
what effort is being made to take some of those vehicles with 
fixed axles that will not be useful in Afghanistan and trying 
to get them to the training installations?
    General Chiarelli. Well, Congressman, I know you know that 
we have begun a pilot program at Red River to go ahead and 
rebuild MRAPs. We will have 53 of them in that pilot program 
this year, and that is going to significantly improve the 
maintenance and reset of MRAPs coming back.
    We have over 500 MRAPs that are set in the training base 
today. And at the same time, you know, we are trying to do a 
balance between the requirements of what is needed down range, 
and we don't have any yet that have come out of Iraq that have 
not been needed in Afghanistan, even the larger models.
    And I have got to tell you were a little nervous that we 
had 500 back here, remembering what happened with up-armored 
Humvees at one time. But we have been able to do this. I know 
we are opening a basic MRAP line again to get some additional 
MRAPs for Afghanistan. I expect the numbers to increase here as 
we meet the requirements in Afghanistan and pull additional 
forces out of Iraq.
    And my commitment to you is to restore that training base 
and get the numbers we need as rapidly as we possibly can. The 
only thing I would tell you that I think is something that 
helps to obviate that risk right now, and I really believe 
this, is the trainer that we have put at places like Shelby, 
that allows folks to train on the MRAP much the same way we 
train on our aviation simulators. This is an excellent trainer 
that I think helps to obviate, but I, like you, would like to 
see more in the training base. And we will get them there as 
quickly as possible.
    Mr. Taylor. Admiral Greenert, I will admit that I am a 
supporter of putting our nation's missile defense on ships. 
What I am concerned about, based on some of the things that 
have been said earlier, I am not convinced that the Navy has 
budgeted the increased steaming days that will be required to 
have that sort of presence around the world. I am not convinced 
that the Navy has budgeted for the additional fuel that is 
going to be needed to keep those vessels under way, and I am 
not convinced the Navy has budgeted for the number of ships we 
are going to need to fulfill that mission.
    So a couple of quick questions. Number one, what is your 
fuel budget for 2011? What was it compared to 2008 when we had 
high fuel prices?
    Secondly, again, I have heard now three CNOs tell me they 
needed 313 ships in the Navy, and yet this year the budget 
request would retire more ships than are delivered to the Navy. 
I think the CNO asked for permission to retire 10. Only seven 
are being delivered. That doesn't get us to 313. That is going 
in the other direction.
    And so with that in mind, to what extent have you looked at 
alternatives for a service life extension of the FFGs until the 
Littoral Combat Ships are delivered and we can start growing 
the fleet again? And so I will leave you with those two 
questions.
    Admiral Greenert. Thank you, Congressman. If I may, I will 
address the ballistic missile defense question first.
    We have been doing what we call long-range search and 
track. That is a national missile defense force since 2004. I 
happen to have some experience. I was out at the 7th Fleet in 
Japan when we started that. And we were concerned as well at 
that time about the additional cost of fuel, wear and tear on 
the ships when we assumed that mission where we keep ships on 
call. They are really on a tether, if you will, based very much 
on our indications and warning for a missile launch.
    We found that in fact it did not substantially increase our 
ship operating costs. We were able to continue the multi-
mission function of those ships as the case may be, and as you 
are well aware, in 2006 and also again in 2009, we had 
increased tensions. We had launches by North Korea in that 
case. So we have some experience. I appreciate your interest in 
that, and we have to keep our eye on it.
    As we look at our phased adaptive approach requirement in 
Europe for fiscal year 2011, we are looking very closely at 
just exactly what you said. Where do we have to position the 
ships so that we can be in position, if called upon to conduct 
that mission? It is really about having the sensors in place, 
the sensor is able to get in place very quickly, and, of 
course, the weapon is in place with the right command and 
control.
    I will have to get back to you on the price of fuel in 2008 
versus 2011. I am pretty confident it is substantially greater, 
and to your point.
    [The information referred to can be found in the Appendix 
beginning on page 117.]
    Admiral Greenert. If I may, your second question, we did 
a--I won't call it rudimentary, but we have to do some more 
close look at the feasibility of doing a service life extension 
program for our fast frigates, our FFGs, retirement.
    We took about five or six, took a look at the whole 
mechanical and electrical condition of those ships and what it 
would take to extend those ships 5 years, from 30 to 35 years. 
And that would, looking at--we have to look at anything from 
the hull thinning--the hulls are actually thinner. We are 
looking at the preservation. We are looking at the diesels. We 
looked at the engines, the gas turbines. It goes on.
    Pretty good look at those five ships, but I think we need 
to take a broader look at it. We need to take a broader look at 
the combat systems. But what we found out is for about $4 
billion, we think that is about right to extend those ships 5 
years to be able to employ them with the systems that we have 
out here today.
    We still aren't sure that they will have the right command 
and control so that they can talk to the rest of the fleet 
today. Most of our FFGs operate almost independently, because 
they just can't integrate with the strike groups today. They 
don't have the command and control. It is where they are in the 
age and the life of their ships.
    I think it is a valuable exercise, and if I may, that is 
not a good word. It is not an exercise. It is a valuable 
consideration. Right now, Freedom is deployed. I think you know 
that, sir. She is on her third week of deployment and already 
down in Southern Command and has three drug busts.
    The speed and the maneuverability and the capability of 
that class of ship speaks pretty well right now. It is doing 
well right now. We have a lot of work to do to evaluate the 
Littoral Combat Ship, but with budgets being tight, if we 
extend the fast frigates, if we extend those ships 5 more years 
and spend the requisite amount, $4 billion, we might get a 
better class of ship and more capability putting that money 
into Littoral Combat Ship. Thank you, sir.
    Mr. Taylor. Again, given that this is an O&M hearing, is 
anyone in your organization having the Secretary of the Navy, 
and Mr. Stackley in particular, take a look at the fuel 
consumption of the two competing varieties of Littoral Combat 
Ship as one of the factors in the decision in the down select?
    Because I would hope that we would--fuel is obviously going 
to be a factor. I can't see it but getting more expensive as 
time goes on, and I would hope that the Navy is at least 
considering--and I don't know which one is more fuel efficient, 
but at least taking a look just to see which of the two 
varieties is more fuel efficient over the 20-plus years that we 
anticipate having those ships in the fleet.
    Admiral Greenert. Yes, sir. I can tell you that fuel 
consumption is a factor within that look.
    Mr. Taylor. Okay.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Gentlemen, may I thank you all for your service to this 
nation? I realize that you have a global view in your jobs, but 
if you would permit me to be parochial for a bit.
    And, Admiral, you have got five minutes to relax for a 
second.
    First to General Chiarelli, if you could, I know you are 
very much aware of the Dugway Proving Ground, which has had an 
800 percent increase of workload since 9/11, but the facilities 
have not. And in fact, Bio Level 3 labs have now spilt into 
temporary trailers, which has now been about a decade of 
temporariness, if that is a word, and yet even though there is 
a safety concern that we have still yet to get into any kind of 
Army Future Years Defense Program (FYDP).
    Dugway is a remote area. It has that commissary that is 50 
years old and undersized. And it is 65 miles from the nearest 
civilization. I know we have had a chance sometimes coming 
close to have you visit out there. I have appreciated that. I 
am not actually asking for that, because it is a long way to 
get out there.
    But I would ask your consideration once again for Dugway, 
for the facilities that are out there and the upgrades they 
need, as well as the Tooele Army Depot, which has--I know this 
is not a Military Construction (MILCON) hearing, but they 
haven't had a MILCON upgrade since I have been elected, and 
those are two facilities, I think, that have high opportunity 
to be having greater utility, especially for the Army.
    And if you will just consider that, you don't even need to 
respond at this time, but I would appreciate your consideration 
on those two areas. The delegation has talked to you about 
those in the past, and I have appreciated that.
    General Chandler, if I could, I was going to ask you some 
questions. I appreciate your talk about the ICBM at the very 
beginning in your statement, and I did have some specific 
questions about the Enhanced Use Lease (EUL) there at Hill Air 
Force Base because, obviously, the 526 ICBM support group has 
been separated from their prime interrogation contractor for 
almost a decade now as well--well, not necessarily a decade, 
but it is a temporary one that is becoming more permanent.
    I just received word, though, that you are close to a cusp 
on a final solution to that, so if I could just encourage you 
and your staff to work with General Hoffman and the Air Force 
Materiel Command to make sure that we push that to a 
completion, especially before any legislative language is 
needed, let me thank you and your office for getting us that 
far and ask that we just go over the edge and finally get that 
finished. I would appreciate it.
    But I do have one question that deals once again with the 
industrial base for the ICBM. I still have certain concerns 
with the warm line that we are doing. The Navy, for example, 
has on, I think, their D-5 12 motor a year project to keep the 
warm line viable.
    In the budget for the warm line for the ICBM Project 
Minuteman III, you have $46 million in fiscal year 2011 for 
three motors, even though the industrial base says it takes six 
to maintain a warm line. But I am also concerned that in 2012 
that $46 million is cut to $10 million, and then to $13 
million. Fiscal year 2013 it is down to zero.
    And I do have some concerns on how you anticipate keeping a 
warm line functionable to make sure that the M-III, which is, 
as General earlier this morning said, is still the cheapest and 
most effective leg of the triad. How are you going to keep them 
viable so that this program of record stays through 2030?
    General Chandler. Well, Congressman, first, let me say we 
will continue to work the EUL. That is something that is 
receiving a lot of attention with the Chief. I spoke with 
General Hoffman yesterday. There is no debate about the fact 
that having that capability inside the fence is good. The issue 
we need to work our way through our requirements that will 
stand the test of time, and we will continue to work that.
    There was a meeting today, I understand, between the Air 
Force as well as the contractor, and we will continue to work 
that. We, like you, would like to bring this to closure.
    Regarding the ICBMs, I have spoken with the people on the 
staff. There is a disagreement, frankly, between what we think 
is viable to keep the line open and what we think we are going 
to need in the future. I would ask you to let us continue to 
work a plan, if you will, that will get us to where we are 
going with solid booster motors, as well as where we are going 
with the Minuteman III, knowing that prompt global strike may 
in fact become a part of this.
    But we will continue to work this issue as well. I take 
your point with regard to how you maintain an industrial base 
at the pace that it is laid out, but this is an issue that we 
will look at in the 2012 pond.
    Mr. Bishop. I appreciate that, and I appreciate your 
commitment to look at that. That is very kind.
    And, Admiral, I don't know if I can solve your problem at 
all, but if I could recommend the Great Salt Lake in my 
district, we don't have any hurricanes. I know it is landlocked 
totally, but the Army Corps of Engineers, Environmental 
Protection Agency (EPA) and Congressman Oberstar still tell me 
it is part of the navigable water system of the United States, 
so it may be an option for you.
    Obviously, Chairman, I yield back.
    Mr. Ortiz. Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here today.
    General Chiarelli, you had mentioned in your remarks 
something about as we try to get back to a more normal time of 
maybe 12 months deployed, 24 months at home, that that may not 
hit the Airborne quite as quick and just wonder if you could 
elaborate on that a little bit.
    General Chiarelli. I may have misspoken, Congressman. I 
meant our aviation soldiers, not the Airborne per se. Our 
aviators right now are going at about a one-to-one dwell right 
now, and the demands on Army aviation are great. We are putting 
about 70 hours a month on our Chinooks in Operation Iraqi 
Freedom in Iraq and about 40 to 50 hours a month in 
Afghanistan.
    And there is some absolutely amazing work being done, being 
able to turn that equipment out of both of those theaters on a 
basic rotation that has got you going 12 months deployed, 12 
months at home, 12 months deployed, or just a little bit over 
12 months. I see the demand on Army aviation going down slower 
than the rest of the force.
    Mr. Kissell. Now, correct me if I am wrong, but are we not 
looking to two more Combat Aviation Brigades in the Army?
    General Chiarelli. We are. One of them, of course, is a 
consolidation of assets to make the 12th Combat Aviation 
Brigade. And we are looking at a 13th that we want to stand up 
as quickly as possible to take some of the pressure off of the 
force and hope to have initial elements from the 13th, which 
will be a new build, in place by--not the entire Combat 
Aviation Brigade, but possibly a battalion or two by 2014.
    Mr. Kissell. So where we have them the most stress in terms 
of the lack of downtime is the same area we are looking to 
build the new brigades.
    General Chiarelli. That is exactly right. We are trying to 
take pressure off of our Combat Aviation Brigades.
    Mr. Kissell. And in just thinking in that regard, which 
also is what we should be doing is building that up, if we are 
using that much, what problems, potential delays beyond the 
obvious do you see in trying to get two additional brigades in 
a time period when there is such stress in this area? Where are 
these troops coming from, the equipment?
    I know the National Guard is expressing concerns you might 
be taking equipment from them or delaying equipment coming to 
them. I just wonder if you can mention that a little bit.
    General Chiarelli. For the 12th Combat Aviation Brigade, we 
have the equipment. We are really consolidating resources that 
we have into a single Combat Aviation Brigade, standing down 
some separate battalions, so to speak, and moving them into a 
Combat Aviation Brigade.
    For the 13th brigade we will need new equipment. And in 
order to get some of that capability out early, we are working 
with the National Guard to check on the possibility of using 
some of their equipment for that early build with a payback. 
This could in fact be a good deal for the National Guard, 
because our plan would be to pay them back with equipment, new 
helicopters coming off the lines.
    Mr. Kissell. Okay. Thank you, sir.
    General Chandler, in the last Defense Appropriations Act, 
there was an amendment that would require the chief of staff of 
the Air Force to get back to this committee by March 1st 
concerning BRAC at Fort Bragg. With the great influx of troops 
and flag officers into Fort Bragg, there was concern that the 
Air Force at Pope Air Force Base would not have equal rank to 
be able to do the proper planning, communication and 
discussions with the flag officers, of which there were 
supposed to be 34 on base.
    And we haven't gotten that response yet, and I noted that 
last week, I believe it was, to the chief of staff that we are 
still waiting on that, so if you could pass that along.
    And also, last week we had some hearings with the chiefs of 
African Command, the European NATO Command, and Central 
Command. And two of the three said that one of their biggest 
worries that keeps them awake at night is cyber security. Just 
wondering if, you know, in terms of operations, if you all have 
the similar concerns.
    And they were supposed to get back to us also in terms of 
how they are proposing to deal with that. Just wondering if any 
of you all have those savings concerns and how you propose to 
deal with them.
    General Chandler. Sir, if I can, first, I will go back and 
find your report or check with the status, and we will get back 
with it with regard to general officer housing.
    [The information referred to can be found in the Appendix 
beginning on page 118.]
    General Chandler. In terms of cyber, I would tell you that 
the Air Force views of cyber on an equal footing with air and 
space. It is an enabler for what we do. If we are not able to 
control cyber space, there is a good chance we will have a hard 
time in air and space as well. For that reason we have lumped 
our capabilities under Air Force Space Command and 24th Air 
Force, which will be the Air Force component of the new sub-
unified command, Cyber Command.
    It is going to be a growth industry. We have a lot of 
capability in the Air Force. What we didn't have was those 
concentrated under one commander in a place where we could get 
our hands on them readily and in fact present them to the 
combatant commanders. And I am sure that is probably part of 
the confusion that they expressed to you as well.
    Mr. Kissell. Any other thoughts there?
    General Chiarelli. Congressman, we, too, are organizing for 
cyber and have been organizing for cyber. We have recent 
decision to stand up our cyber, which will be a separate 
command aligned with United States Strategic Command. And it 
will be commanded by a three-star, and we are bringing our 
resources together to ensure that we have the most capable 
command possible to protect both the national and Army 
networks.
    Mr. Kissell. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    I would like to address this question to General Chiarelli 
and Chandler. What concerns, if any, do each of you have 
regarding how much of your O&M requirement is being funded 
through OCO, particularly dwell maintenance? And when and how 
do you see that funding migrating back to the base budget? And 
you all may have addressed this one. I had to leave due to a 
speech on the floor, so I apologize.
    But, General Chiarelli, would you like to start with that?
    General Chiarelli. Well, it concerns me, as we have, I 
think, been constant in stating to this committee and others 
that we see reset going on for 2 years, 2 to 3 years after we 
finish in both theaters. That is how long it is going to take 
to reset Army equipment.
    We see that our normal budget for our depots--we have money 
migrating in 2011 to it, about $200 million. We have a total 
reset budget this year of over $10 billion in 2011. And we need 
the support of Congress to continue for that reset. We expect 
that reset will be paid out of OCO until we get through this 
period, a majority of it.
    Mr. Rogers. Yes, I may have missed it when you said it 
earlier, but what impact would it have on the Army's readiness 
as far as reset, if we stay in Iraq longer than August 2010?
    General Chiarelli. Well, the equipment would have to be 
reset sooner or later, Congressman. It would just slow down the 
amount of work we see coming back to the depots this year. We 
have been able to meet most of the requirements for Afghanistan 
out of pre-positioned stocks in the CENTCOM Area of 
Responsibility. And a majority of the equipment that is coming 
out of Iraq as we begin our drawdown will be coming back to the 
States and reset either in depots on installations or at other 
locations.
    So if we had to leave more equipment in Iraq, it would in 
fact slow down the return of that equipment to the States.
    Mr. Rogers. Right. Thank you.
    General Chandler, go back to the O&M question of being 
funded through OCO.
    General Chandler. Yes, sir. We are concerned as well. As 
you know, we funded 65 percent of our weapons systems 
sustainment in our baseline. OCO funding brings that to 82 
percent. That is a concern for us. Typically, we like to rotate 
the big-ticket items, aircraft and engines through depot on a 
periodic basis to not build a bow wave that you would suggest 
in terms of having to be funded outside the baseline.
    That is why our number one unfunded priority goes to 
weapons systems sustainment to the tune of $337 million. 
Assuming that we are deferring the aircraft and the engines 
that we will have to defer, that is somewhere in the vicinity 
of about 54 aircraft through depot and about 102 engines that 
will not go through depot based on the risk we are taking in 
the shortfall in weapons systems sustainment.
    So there is no doubt in our mind we need to get back on 
track to the methodology that we would like to use in terms of 
a steady flow through depot of things like aircraft and 
engines.
    Mr. Rogers. All right. Thank you.
    And the last question I have is for General Chiarelli. What 
is your service's current plan for the disposition of MRAP 
vehicles upon conclusion of the wars in Iraq and Afghanistan?
    General Chiarelli. MRAP vehicles will in fact be moved into 
our formations. We have over 3,000 MRAP vehicles that will be 
part of our table of organization and equipment, particularly 
in combat service and combat service support brigades. And we 
will be establishing a number of sets of MRAPs that will be 
available for units that go into an environment that requires 
the MRAP vehicle.
    Mr. Rogers. So you do plan to reset them.
    General Chiarelli. We do plan to reset them, and that 
started the process that we are starting at Red River now to do 
that. I might add into that our depot base, depending on who I 
ask and what day of the week it is, I am told we need between 
$2.9 billion and $3.1 billion in the base to do our normal 
depot operations. And we are moving to get that amount in over 
the FYDP.
    Mr. Rogers. Great. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Ortiz. Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman.
    And thank all of you for your service, especially to 
Admiral Greenert, who hails from Western Pennsylvania and who 
is a Steelers fan. That is always a good thing. Welcome, all of 
you.
    My question to General Chiarelli, and you answered some of 
it with the reset question that Mr. Rogers asked. But you and 
General Amos, I believe, you testified in December saying that 
your general view was that there would be lower depot 
maintenance requirements, lower work at the depots. And in fact 
it doesn't seem that it is going to be lower.
    From what you said that when we bring these vehicles back 
from Iraq, we are going to reset them. We are going to need to 
reset them. So I believe what you said is for the next couple 
of years, you are going to see a high level of reset activity 
and activity at the depots. Is that your view, generally?
    General Chiarelli. It is, Congressman, and the point I was 
trying to get back last year when I testified in front of the 
committee was the fact that because of the force buildup in 
Afghanistan before the forces came out of Iraq, equipment that 
we had coming back and going into reset was being diverted into 
Afghanistan.
    Now that we have gotten past this first period, we expect 
toward the end of this fiscal year as those forces and that 
equipment come out of Iraq, we are going to see that return to 
the depots. And we feel properly postured to get that work into 
the depots.
    Mr. Shuster. Good. And the work that is being done with the 
equipment that is going from Iraq to Afghanistan, that is being 
done in theater? And it is my understanding we have the 
contractors doing that work, resetting it before it goes to 
Afghanistan?
    General Chiarelli. It is not always reset. It is in fact 
brought up to a higher maintenance standard in Kuwait with some 
government workers and some contractors. But as that equipment 
comes out of Afghanistan, it, too, will come back and be put 
into the reset pool.
    Mr. Shuster. Right. And I asked a question to General Myles 
a couple of weeks ago and asked with you the cost of that. And 
I am not sure anybody has determined, or at least told me, is 
the cost higher? I have heard with some estimates it is a lot 
higher to reset or repair, bring up to better, higher standard, 
doing it in theater than actually sending it back home and 
sending it to Afghanistan. Do you know what the numbers are?
    General Chiarelli. The issue is timing. I do not have the 
exact numbers. I will in fact provide those to you, but the 
issue here was timing. To take that equipment, send it all the 
way back home, reset it and then have to send it into 
Afghanistan, given issues there, would have been problematical. 
So we did not do a full reset. We brought it up to what we 
would call 1020 standards and got it as quickly as we could 
into Afghanistan.
    [The information referred to can be found in the Appendix 
beginning on page 118.]
    Mr. Shuster. And I would be interested at some point to see 
just what the cost differences are to reset it, raise the ramp 
up to standard of there versus here. So if you could get back 
to me on it, I would appreciate that.
    And the final question is the long-term strategy with our 
depots. You had mentioned that some stuff will come back here 
and go to other locations. I take that other locations meaning 
maybe companies in the private sector.
    And I just wanted to know the long-term strategy with our 
depots. Are we going to keep that core competency in place? I 
know we have spent about $100 million over the last several 
years making sure our depots have what they need. And is that 
our strategy to make sure that that core competency remains at 
the depots so that if something happens again, we have that 
surge capability?
    General Chiarelli. It is definitely our strategy. As you 
well know, we have begun this reset pilot for MRAPs in Red 
River. We are getting ready to kick off programs for 
transmissions for two of our helicopters in Corpus Christi. And 
we have structured our depots so there are about 70 percent 
government workers, 30 percent contractors.
    We, because we did have a little bit less reset in a couple 
of our depots, had to lay off some workers earlier this year, 
but we were able to do that out of the contract force and 
ensure that we maintain our government force of about 70 
percent at all our depots.
    Our plans are to use our depots to their full advantage. I 
can assure you of that.
    Mr. Shuster. And, of course, one of the ways to do that is 
make sure we spread the workload equally throughout them so 
that we don't weaken one of our depots or several of our 
depots. So I hope we do use that strategy as we move forward. 
So thank you. Thank you very much.
    I yield back.
    Mr. Ortiz. Thank you. I think that we are almost finished. 
We have two more questions, and this goes to General Chandler.
    The Air Force recently provided the committee with a 
classified report on your combat air forces restructuring plan. 
Most reports we get from you also, with an unclassified 
version, and I would like to ask that the unclassified version 
be provided to the committee immediately as soon as you can. 
And this would really help out the other members of the 
committee, who are interested in this issue.
    And that is my only comment. It is not a question, but a 
comment, unless you want to make a statement on this.
    General Chandler. No, sir. I would take that, and we will 
get back to you.
    [The information referred to can be found in the Appendix 
beginning on page 117.]
    Mr. Ortiz. Thank you, sir.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Just, Admiral, coming back to you one more time and one 
more question, I want to preface this. Congressman Taylor 
mentioned that this is an O&M hearing, and in fact it is. The 
unfortunate thing is we don't get access to you guys very 
often.
    And the second thing is that we have shortfalls in 
shipbuilding. We have shortfalls in the number of planes we 
have. And we have shortfalls in the maintenance we can get. So 
when we are spending $590 million someplace, we had better make 
sure we are spending it right, because we are going to have 
shortfalls somewhere else. And that is why this question about 
the carrier is so important to me.
    The other reason it is important to me is I will just tell 
you and just be out front with it. Several years ago before any 
of these EIS statements, before any of this thing was made, I 
was in the White House, and I heard President Bush say to a 
member of the Florida delegation, ``We are going to get that 
carrier down there to you in Mayport.'' And I am not saying he 
wasn't doing what he thought was right, but that was before any 
of the studies were made. And it would be at least questioned 
sometime the decision and the motives for doing something.
    Then when the chairman asked you what you were really 
worried about, you said, ``I am worried about the unfunded 
Central Command tempo and the $500 million for that.'' But when 
I asked you which is more important, you tell me the carrier. 
And I sit here and wonder, well, why isn't the Admiral sitting 
here saying, ``I am worried to death that we aren't having that 
homeport of that carrier right now.''
    And the last question I just want to kind of nail in just 
so I understand, because I am just not buying the hurricane 
argument and some of the other ones. And, you know, you are 
telling me that the docking availabilities are going to be done 
in Norfolk. That is the bulk of the time.
    On the other times that this carrier would be in port, I 
want to ask you this question. Are you concerned that two 
carriers are together, that three carriers are together? What 
is the tipping point for you? Because I take it even if you put 
this carrier down there, you are going to have times in Norfolk 
where you are going to have three carriers together, four 
carriers together. Does that bother you? And are we going to 
have to have five different ports for these carriers? Help me 
with that one, if you could.
    Well, let us take the two-carrier scenario. Does that 
bother you?
    Admiral Greenert. No, Congressman. I am not concerned about 
two carriers together, three carriers together. We have three 
carriers together today in Newport News in maintenance.
    The issue is that we don't have a second carrier port. We 
have through history. Mayport has been a carrier port for a 
long time. It is not about the Mayport. It is about a second 
port to have a carrier and the strategic dispersal. And it is 
important to us.
    And in the context of the question given to me earlier by 
the chairman, it was he talked to me--I took it to mean O&M.
    Mr. Forbes. So then----
    Admiral Greenert. He asked me what were my O&M concerns, 
and so I was trying to answer that question.
    Mr. Forbes. And that is fair enough. So then your concern 
is really not that the carriers are bunched up together and 
something could happen to them together. You are just concerned 
that we don't have another homeport for another carrier. I 
mean, I am just trying to make sure I understand what you just 
told me.
    Admiral Greenert. I am concerned that we have on the East 
Coast with every other ship type that we have--SSBNs. We have 
two other ports other than Kings Bay where we can put SSBNs 
into, and every other type of ship--cruisers, destroyers, 
SSNs--other than a nuclear carrier. We have no second port 
and----
    Mr. Forbes. To homeport it. But you could put it there that 
it would be worked on, correct?
    Admiral Greenert. Which ship?
    Mr. Forbes. The carrier.
    Admiral Greenert. The carrier? Currently, no, sir. We would 
need to make changes to Mayport anyway to go in and to----
    Mr. Forbes. But as far as working on the carrier in a 
catastrophic situation that you were talking about terrorists, 
you do have Newport News, who builds the carriers, and they 
could do the work on the carriers, if we needed to, correct?
    Admiral Greenert. They could. It is the same channel. We 
talked earlier about channels, navigational channels and that. 
It is Norfolk, Newport News----
    Mr. Forbes. But you are not realistically worried about 
that channel being blocked, are you?
    Admiral Greenert. Which channel, Congressman?
    Mr. Forbes. The Norfolk channel, 4,500 feet--are you 
worried about that?
    Admiral Greenert. Under the right set of circumstances, 
yes, I can.
    Mr. Forbes. Tell me that set of circumstances, if you 
would.
    Admiral Greenert. A barge.
    Mr. Forbes. You are saying one barge?
    Admiral Greenert. You know, our time together in Norfolk, I 
have seen maintenance being done on the channel on the NAV-8 up 
there by the Bay Bridge Tunnel.
    Mr. Forbes. Is it your testimony--and just I will close 
with this, because we are talking about not only spending this 
money, but we are talking about having to move 700 men to 
Florida, if we do the work down there, because you are not 
talking about creating a new workforce down there.
    You are talking about them paying per diem while they are 
down there. You are talking about them being away from their 
families. You are talking about doing all of the availabilities 
in Norfolk based on your testimony, some of those as much as 7 
months at a time when we are bringing all those crews from 
Mayport to Norfolk to have to stay during that period of time 
away from their families.
    And your testimony is to me today, just the last one, that 
you think a single barge could shut down the channel in 
Norfolk.
    Admiral Greenert. No, sir. A single barge likely couldn't 
shut down the channel in Norfolk. A single barge combined with 
the circumstances of shipping you gave me a few examples 
before--I mean, we could paint this picture perhaps a number of 
ways. I would give it to you, you know. I am not familiar with 
all of the exact distances, but I am saying there are 
chokepoints. There are certain points in the Norfolk and the 
tidewater area--the Hampton Roads area, excuse me, where there 
are critical areas.
    The movement for nuclear work--I can't tell you the exact 
numbers. I don't know that it is 700, but that is an 
extraordinary number to do nuclear work today on a carrier.
    Mr. Forbes. The average by the shipyard is 400.
    Admiral Greenert. Four hundred. And I can give you--I will 
research that and get you what kind of work packages we use 
today when we do maintenance away from a nuclear repair 
facility such as Newport News or such as Puget Sound are such 
as Norfolk Naval Shipyard.
    [The information referred to was not available at the time 
of printing.]
    Mr. Forbes. Okay.
    Mr. Chairman, thank you.
    Mr. Ortiz. You know, General Chiarelli, I just have one 
more question.
    In a recent letter to the Army chief of staff, General 
Dempsey is the head of Training and Doctrine Command. He raised 
some serious concerns about how low manning loads in TRADOC 
were damaging TRADOC's ability to carry out its mission.
    What are your thoughts on the issues raised in this letter? 
And what can the Army to in the near term to address the issues 
General Dempsey raised? Is the main issue simply lack of 
people, or is it lack of funding and personnel or O&M accounts?
    For the committee to try to help in this area in this 
year's legislation, what can we do to be supportive of what you 
are owning?
    General Chiarelli. Mr. Chairman, I was briefed just before 
I came up here about the current strength at TRADOC. And they 
are currently about 71 percent strength. And you can look at 71 
percent and realize that that is truly not their true strength.
    As you know, TRADOC is part of the generating force, and we 
have cut the generating force from about 114,000 folks 10 years 
ago down to 92.1 today. And we have substituted many of those 
folks who used to wear uniforms with civilian contractors. And 
I think one of the things that General Dempsey talked about was 
the de-greening of TRADOC.
    TRADOC's problem, and when I quoted the 71 percent figure, 
that does not include the individuals that they have that have 
been tasked out as individual augmentees downrange. You see 
their numbers drop much lower than 71 percent when you take 
away those folks, because those folks who remain assigned to 
TRADOC, but for temporary duty downrange for 12 months.
    So that exacerbates this issue. A large cut in the 
generating force and the fact that we have so many individual 
augmentees--over 11,000 today in the United States Army, and 
many of them come out of the generating force.
    I think one of the things we all have to get past is kind 
of a Cold War thought process that we had when we talked about 
tooth to tail, and the generating force was always considered 
the tail. And we were always looking to try to increase tooth.
    Well, in the very complex fights we are in today, that is 
requirements for what TRADOC does to train our soldiers every 
single day, both when they come in the Army and throughout 
their whole career, is absolutely critical to having the kind 
of leaders we need to fight these fights.
    We are looking at the generating force and what we need to 
do to get it right-sized and ensure it has the number of 
``green suiters'' they need to do the very important job they 
have to do.
    Mr. Ortiz. I think that----
    Mr. Shuster, do you have a question?
    Mr. Shuster. Yes, I have one question. And it is based on 
what Mr. Forbes said. He said, right, we don't get a whole lot 
of opportunity to spend time and get the question here. So I 
have a question, and actually it is a question I have heard 
Chairman Skelton ask before, and I think it is worthwhile 
asking you folks, all of you, to answer. It is what keeps you 
up at night.
    And I would start with General Amos. What does keep you up 
at night, that keeps you--what are your concerns and----
    General Amos. Sir, probably the single thing that keeps me 
up at night is where are we going to be when VJ Day is declared 
and whatever that is going to look like and whatever criteria 
is going to be set, but when our nation says success, let us 
bring our men and women home, will Congress, will the American 
people, will the leadership of our government still have the 
stomach to understand that we are going to have to spend 
several more years with the effort and money to truly reset and 
re-capitalize this force.
    Now, that worries me more than anything. You know, I read 
the same newspapers you do. I have the same sense of 
anticipation of where the budgets are going over the next 
couple of years, and it is going to pressurize, because there 
is certainly no slack in the requirement for equipment, people 
and that type of thing.
    So that is the single thing that worries me the most is 
when it is done, will we have the stomach to be able to have 
the wherewithal to be able to recapitalize our force?
    Mr. Forbes. Thank you.
    General Chandler
    General Chandler. Sir, I would say one of our biggest 
concerns is where we are going to be 10 to 15 years from now. 
Today we are rightfully trying to balance the fight we are in 
today with preparing for where we need to be tomorrow.
    And as General Amos has expressed, there is a lot of 
pressure on budgets, whether it is weapons systems sustainment. 
One pressure we didn't talk about today are the personnel costs 
of maintaining the volunteer force that we have today, which is 
the best armed forces in the world, but doesn't come without a 
price.
    Weapons systems and the costs accelerating around those, 
particularly the high-tech weapons systems and the business-
oriented in terms of aircraft and things that go with them in 
terms of weapons are things that we are going to need to work 
our way through and think about as we look to where we need to 
be 10 to 15 years from today.
    Mr. Forbes. Yes.
    Admiral Greenert.
    Admiral Greenert. Thank you for the question. I am 
concerned about the compiling effect of the wear and tear on 
the equipment and the fact that we haven't come to grips with 
reset.
    So a little bit about what General Amos said. If we don't 
reset the equipment and then when this war is over and folks 
say, okay, let us get on with for us the maritime strategy and 
whatever the National Command Authority requires of us. We have 
what we call in the Navy quality of service, and that is, 
basically, the condition of the equipment that our people 
operate, the ships, the aircraft that they are in.
    And there is the stress on them right now, which is 
extraordinary, and I think we have to understand it. My 
colleagues to my right and left have--they are dealing with 
something bigger than the Navy, but we still have the same kind 
of issues that they have. And my hat is off to them with 
dealing with it.
    We understand unit readiness pretty well. We understand 
people readiness reasonably well, what it takes for a person to 
be deployable. And we need to understand what takes our 
families to be prepared to help support these fine men and 
women that go out and do that. And I think we need to--it keeps 
me up at night understanding that, because we may recruit the 
individual, but we re-enlist the family. And if we don't have 
that support unit and therefore the people in the future, then 
it doesn't matter how much force structure we have. Thanks.
    Mr. Forbes. General Chiarelli.
    General Chiarelli. I won't repeat reset, but reset keeps me 
up at night for sure. The other thing that keeps me up at night 
is achieving balance. I think it is absolutely critical the 
Army get to a point where we have at least a majority of our 
folks two years or more at home between deployments.
    And the other thing that concerns me is the importance of 
focusing on reset and the cost it is going to take to reset a 
force that has been run very, very hard for 8\1/2\ years.
    I worry about our ability to modernize the force. In a 
period of diminishing budgets, in a very difficult time for our 
country, can we modernize? Can we take advantage of the great 
technological edges we have? Can we do what my personal Apple 
iPhone has been able to do? Come out with three successive 
models in a very short period of time, or are we stuck in a 10-
year industrial cycle that just makes it so very, very 
difficult for us to move to the most modern of equipment.
    So I worry a lot about that, given our recent experiences. 
We are trying to learn everything we can from them, but I think 
it is absolutely essential that not only do we reset the 
current equipment that we have got, but that we have a plan for 
modernizing our force so that we are ready for the threats of 
the future.
    Mr. Forbes. Well, thank each of you for your answer. And I 
would just like to say I think it is extremely valid in the 
future. Where are we going to be? As the general said is 
America and Congress going to have the stomach to do it?
    And I think our number one responsibility in the Federal 
Government is national security, the common defense. Everything 
else pales to that, and we have got to make sure we continue to 
reinforce that to the American people, because we have folks 
around the world that are getting smarter and getting stronger 
and buying this other equipment that would do us harm.
    And we also, equally concerning to me, is we have allies 
that want to do less, and America is forced to do more. So I 
certainly think about those things with you and support 
everything you are doing and want to work with you in the 
future. Thank you.
    Mr. Ortiz. Thank you so much. This has been an outstanding 
hearing today, and thank you for being candid with us.
    No, go ahead.
    Mr. Taylor. Again, I would like to thank each of you 
gentlemen for your service to our nation, for being here today. 
But since I have the different services here, General Chandler, 
could you get me the price, a fully burdened price of a gallon 
of fuel or barrel of fuel, whichever you prefer, that you buy 
at--Air Force Base.
    General Amos, the same thing for Camp Leatherneck in 
Afghanistan.
    And General Chiarelli for either Regional Command (RC) 
South or RC East, whichever you prefer. A fully burdened cost 
to a gallon or a barrel of fuel. Okay.
    [The information referred to can be found in the Appendix 
on page 118.]
    Again, thank you, gentlemen, for being here.
    Mr. Ortiz. That is a very good question, because sometime 
back it came to my attention that when we talk about the 
transportation and the getting there and moving the gasoline, 
that when we pay all of that, and this is what I heard, that it 
comes to about $400 a gallon. I don't know whether this figure 
is close, but this is what I hear.
    But thank you so much for responding to later on for the 
record for Mr. Taylor. And this has been a great hearing, and 
we are in this game together, and we are going to work with 
you, and we are going to give you as much as the Budget 
Committee gives us. This is how it works.
    But I want to thank for your service. And I know, you know, 
the family goes through a lot, too. You have family, you have 
children, and it takes a lot from your daily life to be, you 
know, doing the work that you are doing, separated from your 
family. But thank you so much for what you do.
    I want to thank the other members for being with us today. 
We have a very responsible subcommittee, and they want to do 
this the best. And I also want to thank the staff, because they 
do a lot of work. They do a lot of traveling so that we can 
come up with some of the answers to some of the questions that 
you might have.
    Again, having no further questions, this hearing is 
adjourned. Thank you so much.
    [Whereupon, at 3:58 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 16, 2010
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 16, 2010

=======================================================================

      
      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 16, 2010

=======================================================================

      
      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 16, 2010

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. ORTIZ

    General Chandler. On 17 March, 2010, the AF sent the requested 
information regarding an unclassified version of the CAF Restructure 
Report to Ms. Lynn Williams and Ms. Cathy Garman. This information 
included the executive summary, the environmental analyses, a summary 
of the manpower authorizations necessary for reassignment, the funding 
needed for FY2010-FY2015, and the re-investment plan. Also included was 
the appendix reviewing the AF fighters considered for force structure 
reductions. These documents are provided in this response.

    TAB 1-- CAF-R Executive Summary
    TAB 2-- CAF-R Tables
    TAB 3-- Appendix C--AF Fighters Considered for 10POM Force 
Structure Reduction
    TAB 4-- UNCLASSIFIED FY10 CAF Restructure Flow

[See page 30.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. FORBES
    Admiral Greenert. The notional maintenance schedule for a CVN 
reflects two continuous maintenance periods, known as Carrier 
Incremental Availabilities (CIA's), during its 32 month operating 
cycle. Each of these periods will last 30 days and will be conducted 
pier-side in Mayport. [See page 19.]
    Admiral Greenert. The notional maintenance schedule for a CVN 
reflects:

    a)  A Dry-docking Planned Incremental Availability (DPIA) once 
every third operating cycle (approximately every 8 years) for a total 
of four periods during its expected service life. This docking period, 
for an East Coast CVN, would take place in a Norfolk, VA area shipyard.

    b)  A 39 month Refueling and Complex Overhaul (RCOH) conducted at 
Northrop Grumman Shipbuilding in Newport News, VA at the mid point in 
the ship's life (about 23 years).

    During periods when the Mayport CVN is in Norfolk, the facilities 
in Mayport will be available to perform maintenance on remaining CVNs, 
thus maintaining geographic dispersal capabilities. [See page 19.]
    General Chandler. For the peak demand the QDR assumed that 100% of 
the combat coded forces would be available. However, an excursion was 
run to provide an estimate of force availability to account for a 
shorter warning time and a recovery from rotational activities. This 
equated to a force availability of 80% for the Air Force.
    Clarifying information: For purposes of the force sufficiency 
analysis within QDR, the department used scenarios that were divided 
into 3 separate rotational periods. In the steady-state, non-surge 
period of activities, each of the services applied their service 
established rotational goals. For the Air Force that equated to 1:4 
deploy-to-dwell ratio for the active component and 1:5 mobilization-to-
dwell ratio for the reserve component. It was assumed that these 
rotational goals were sufficient to ensure a ready force to meet the 
rotational demands.
    In the surge, major warfight period, full mobilization was assumed. 
Given, the warning timelines and sequencing of the scenario 
combinations it was assumed that 100% of the forces would be available. 
For the post-surge, stability and reconstruction period, QDR used 1:2 
deploy-to-dwell ratio for the active component and 1:4 mobilization-to-
dwell ratio for the reserve component. [See page 21.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. TAYLOR
    Admiral Greenert. The initial fuel budget request for FY2008 was 
$2.9 billion. The budgeted amount was adjusted three times during the 
year of execution due to increased fuel prices. As a result, total 
obligations for FY2008 were $4.8 billion. The fuel budget request for 
FY2011 is $4.1 billion. [See page 23.]
    General Chiarelli. [The information referred to was not available 
at the time of printing.] [See page 36.]
    General Amos. A contracting company for NATO named ``Supreme'' 
delivers fuel to 3 USMC locations in Afghanistan, namely Camps Dwyer, 
Leatherneck, and Delaram. The fully burdened cost of delivery of fuel 
to Leatherneck is $6.50 per gallon, which is paid to ``Supreme''. [See 
page 36.]
    General Chandler. The Air Force buys fuel in Afghanistan from both 
the Defense Energy Support Center (DESC) and North Atlantic Treaty 
Organization (NATO). The DESC standard price to their Operation 
Enduring Freedom (OEF) customers is, currently, $2.82 per gallon to a 
``point of sale.'' This point of sale price includes all of DESC's 
costs up to the point of sale in Afghanistan to include the commodity 
cost, transportation, intermediate storage and distribution facilities, 
maintenance and upkeep costs and DESC labor and overhead costs. NATO 
also sells fuel to US forces in OEF, currently, for $6.50 per gallon. 
This price includes NATO's DESC-like costs plus the cost of 
distribution to their forward locations and the costs of running their 
bulk fuel installations. Neither DESC's nor NATO's standard price 
includes the logistics costs and associated force protection costs of 
onward movement from point of sale, such as to a combat outpost, 
incurred by the services.
    The DESC and NATO prices are ``burdened'' with overhead. However, 
these ``burdened'' prices should not be confused with the ``fully 
burdened cost of fuel (FBCF)'' construct as contained within the 2009 
National Defense Authorization Act. The FBCF construct, which is 
designed to be used in Service acquisitions of future systems, begins 
with the DESC standard price and adds the cost of Service logistic 
``tails'' and any force protection needed to secure a fuel delivery 
beyond the DESC point of sale in acquisition tradeoff analyses. [See 
page 36.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. SHUSTER
    General Chiarelli. The Army is not performing ``Reset'' per se in 
Kuwait, so it is not possible to provide a cost comparison. We are 
however repairing Army equipment that had been in use in Iraq, before 
transferring it to Afghanistan. The difference is in the scope of 
work--the repairs in Kuwait are generally just enough to ensure the 
item of equipment is fully mission capable; on the other hand, 
``Reset'' not only makes an item of equipment fully mission capable, 
but it also ensures that the item of equipment meets the Army 
maintenance standard laid out in AR 750-1, in accordance with the 
applicable technical manuals, and also includes such maintenance 
actions as to eliminate the effects of delayed desert damage (for 
example, while inspecting a tank in accordance with the technical 
manual, removal of the turret from the hull would not be required; 
however, in Reset, because we want to remove the effects of operating 
for a year in the fine sand and dust prevalent throughout Iraq, we 
remove the turret, clean and service the race ring, all to ensure that 
any build up of sand and debris does not come back to haunt us down the 
road). Although the maintenance done in theater is to a lower scope 
than ``Reset,'' the repairs we make in theater help ensure that 
equipment provided to our forces in Afghanistan is fully mission 
capable, without having to bring it all the way back to CONUS for 
repair. Finally, only a very small amount of the total maintenance 
workload conducted in theater is classified as ``depot level'' repair, 
but we do ensure that the Army captures those costs in our annual 50/50 
depot level maintenance report--in some cases, that work is performed 
by depot (government) workers deployed forward from CONUS; in other 
cases, it is performed by contract . . . but in all cases, it is 
counted in the appropriate category for purposes of the 50/50 report. 
[See page 29.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. KISSELL
    General Chandler. Yes, there are sufficient AF Senior leaders at 
Pope AFB to sustain the mission. [See page 27.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 16, 2010

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. What are the implications, in terms of O&M spending in 
the future, of keeping the Army Reserve and Army National Guard in an 
``operational reserve'' status? Would current funding levels, which 
include OCO funding, have to eventually become part of the base budget 
request? Can the Army afford to do that?
    General Chiarelli. Current funding levels, including OCO O&M, allow 
the Reserve Components to sustain the ARFORGEN training strategy, which 
is a major component of operational reserve. The OCO funding would have 
to become part of the base budget in order to continue operational 
training. There are other components of ``operational reserve'' that 
are still being studied, for example full time support, that are not 
currently part of OCO. These would eventually have to be added to the 
base budget before the Reserve Components are a fully operational 
force. In order to get the Reserve Component to an ``operational 
reserve'' status, the Army would eventually need an increase in base 
funding.
    Mr. Ortiz. General Jack Stultz, the Chief of the Army Reserve, has 
said that the reserve component will need at least $1.5 billion more 
across the FY12-FY17 time period to maintain ``operational reserve'' 
status. Is that about the right figure?
    General Chiarelli. The $1.5B figure is a per year estimate for 
maintaining an ``operational reserve'' status. Across the FY12-17 time 
period, the total is approximately $9.2B. This amount includes 
additional collective training days and additional support needed. The 
Director, Army National Guard and Chief, Army Reserve have stated that 
this will help maintain an operational force by sustaining readiness 
levels and supporting increased participation of non-deployed Soldiers 
in Military Support to Civil Authority exercises, theater engagement 
programs and other Army requirements. We are also looking at more 
options during our FY12-16 process to determine costs of an operational 
reserve.
    Mr. Ortiz. The readiness levels of most non-deployed Army units 
remain very low, due to a combination of equipment shortfalls, 
personnel shortfalls, and a lack of time to train. How much will the 
readiness of non-deployed Army units improve in FY11, assuming the Iraq 
drawdown continues as planned? How much will dwell time increase? How 
much more dwell time will units need to really improve their readiness 
levels, in particular for full-spectrum operations training?
    General Chiarelli. Assuming responsible draw down operations 
continue on schedule in Iraq, the Army will make progress towards 
reaching our 2012 interim force rotational cycle goal of two years at 
home station for every year deployed for our Active Component (AC) and 
four years at home station for every year deployed for our Reserve 
Component (RC). Responsible drawdown from Iraq provides the Army with 
the flexibility that has been missing to build operational depth. To 
capitalize on this new flexibility, we have refined our force 
generation model to build full-spectrum readiness consistently and 
predictably, which will result in the formation of a full-spectrum 
force with capabilities to hedge against unexpected contingencies. 
Assuming the Iraq drawdown occurs in accordance with U.S. Forces-Iraq's 
plan, we will begin to build the contingency force in 2011, achieve the 
full contingency force by 2012, and have sustained operational depth by 
2013. These measures will restore Army readiness and strategic 
flexibility to our Nation's leaders.
    Assuming the drawdown in Iraq continues on schedule and no further 
troop increases are required for Afghanistan, the Army will achieve our 
intermediate Boots on the Ground (BOG) deployed to at home (Dwell) 
ratios of 1:2 for AC units and 1:4 for RC units in 2012.
    The Army's long term BOG:Dwell goal is 1:3 AC and 1:5 RC. The 
Army's temporary growth and changes in global force demands ensure a 
steady state balance to long term BOG:Dwell in 2015.
    The Army estimates that approximately 70% of the AC and 80% of the 
RC Brigade Combat Teams will achieve the BOG:Dwell goals of 1:2 AC and 
1:4 RC by 2011. The remainder of the force will continue to see their 
dwell rate increase and should meet these goals by 2012.
    Mr. Ortiz. It is our understanding that the Army is revising its 
depot maintenance requirements process to synchronize with ARFORGEN and 
integrate core workload and fleet management. Please describe what is 
driving this revision and what the Army hopes to achieve.
    General Chiarelli. That is correct--the Army has aligned the 
process to determine depot maintenance requirements to better support 
Army Force Generation (ARFORGEN), to better synchronize fleet 
management requirements over the Program Objective Memorandum (POM), 
and to incorporate Title 10, SEC 2464 Core Depot Requirements. The new 
process captures depot maintenance requirements across both the base 
and OCO, and incorporates them into a single database. This will allow 
the Army to look forward as it considers base and reset requirements in 
a synchronized fashion across the Future Years Defense Program. Army 
depot maintenance priorities are based on ARFORGEN equipping needs to 
support training, readiness, and deployment requirements, and will be 
based on equipment availability, reliability, and the unit's status in 
the ARFORGEN pool.
    The Army's new process also recognizes and prioritizes core 
requirements as a key parameter. The Army requests appropriate funding 
for core depot requirements to ensure that the Army's industrial base 
retains the knowledge, skills and abilities needed to sustain our 
critical warfighting equipment throughout the system's life-cycle. 
Incorporating fleet management strategies into our depot maintenance 
requirements determination process ensures that the POM addresses both 
current readiness/combat damaged equipment, and also future 
requirements based on OPTEMPO/age parameters.
    All this will ensure that the Army is postured to provide capable 
and reliable equipment that meets the Army's readiness standards, as 
well as to maintain or reduce operational and support costs. Our 
expectation is that the combination of these efforts will enable the 
Army to develop a synchronized depot maintenance budget that is forward 
looking, tied to ARFORGEN and ensures that the Army's industrial base 
remains a critical and viable component of our sustainment strategies. 
This process recognizes that the Army's industrial base is sized and 
funded to meet the Army's current and future equipment sustainment 
needs and will provide predictability and stability to our depot 
workloads and support core depot requirements.
    Mr. Ortiz. What would be the impact on equipment reset and Army 
training and readiness if the Army were to remain in Iraq longer than 
the August 2010 withdrawal deadline?
    General Chiarelli. The military is currently scheduled to sustain 
50,000 personnel past August 2010, through December 2011. Any troop 
levels higher than those currently scheduled would impact on equipment 
reset, training, and readiness. The Army would have to adjust equipment 
reset priorities to source the additional deploying units, thus 
degrading the Army's efforts to build operational depth and hedge 
against unexpected contingencies. Unit dwell times would not improve as 
quickly as we projected under the current OIF Responsible Drawdown 
Plan. Training cycles would remain constrained, limiting our capacity 
to conduct full spectrum operations training. Finally, the Army would 
have to continue the practice of filling units with personnel late in 
the force generation lifecycle, which lessens the time personnel have 
to train with the unit before they deploy.
    Mr. Ortiz. How does the FY11 budget request prepare each of your 
services for future conflict?
    General Chiarelli. The President's Budget for Fiscal Year 2011 will 
enable the Army to sustain our Soldiers and Families, continue 
preparing our Soldiers for success in the current conflict, reset them 
effectively when they return, and continue to transform them for an 
uncertain future.
    Specific to preparing for the future, the FY11 budget request 
supports three key Army goals. First, the Army is committed to 
improving individual and collective training to better prepare Soldiers 
and leaders for a complex and challenging operational environment. 
Second, we continuously work to provide our formations with effective 
equipment in a timely manner that maintains our technological edge and 
protects our most critical resource--the Soldier. Finally, we must 
transform the Army to a rotational model using Army Force Generation or 
ARFORGEN. This is our core process for generating trained, ready, and 
cohesive units on a sustained and rotational basis to meet future 
strategic demands.
    For example, the FY11 budget supports training and sustainment of 
Army forces to include individual skills and leader training; combined 
arms training toward full spectrum operations; and adaptable, phased 
training based on the ARFORGEN process.
    The FY11 budget also invests $3.2 billion in Brigade Combat Team 
(BCT) modernization programs that include procurement of the first 
incremental changes packages for Infantry BCTs, research, development, 
testing and evaluation for subsequent change packages, and the 
development of the Ground Combat Vehicle. Additional investments in the 
FY11 budget provide funding to begin equipping a thirteenth combat 
aviation brigade and support the increase in intelligence, 
surveillance, and reconnaissance platforms.
    Mr. Ortiz. What concerns do each of you have regarding how much of 
your O&M requirement is funded through OCO, particularly depot 
maintenance? When and how do you see that funding migrating back to the 
base budget?
    General Chiarelli. The OCO O&M dollars for depot maintenance 
support the Reset of our equipment as it returns from combat 
operations. Over the next several years, as the number of deployed 
forces decreases, this Reset requirement will decrease. However, we 
expect that OCO Reset funding will be needed two to three years after 
the return of all deployed forces. As fewer forces are deployed, home 
station OPTEMPO and training increase. This will drive an increased 
reliance on base budget funding in OPTEMPO and depot maintenance that 
we will see over the next few years.
    Mr. Ortiz. What impact has OMB's new rules regarding what can be 
and cannot be included in the OCO request had on your services' 
requests for reset funding?
    General Chiarelli. The impact of the OMB criteria has been minimal 
with respect to Reset. The rules allow for replacement or repair to 
original capability (to upgraded capability if that is currently 
available) of equipment returning from theater. Procurement-funded 
Recapitalization to enhance a system's capabilities, if that 
Recapitalization is performed to meet war-related requirements (such as 
adding armor), is also permitted. Of concern for the Army is OMB's 
determination that procurement funding must be executed within 12 
months. A better metric for procurement funding might be based upon the 
delivery schedule of an equipment item.
    Mr. Ortiz. For logistics support that is being brought back in-
house to be performed by service personnel, do your services have the 
necessary technical data packages?
    General Chiarelli. Yes. As a rule, only the systems that have 
available technical data packages are returned for organic depot 
maintenance support. If a technical data package is not available there 
is not an effort to return the system for organic depot maintenance.
    Mr. Ortiz. What criteria have been established for determining 
which functions should be insourced?
    General Chiarelli. Depot maintenance planning and source of repair 
determination is an integral function of the integrated logistics 
support process. Representatives from all involved parties 
(acquisition, logistics, legal, headquarters and others) are involved 
in the process. It starts with the Core Logistics Assessment and 
finalizes with the Depot Source of Repair decision. Guidance is 
provided by numerous documents, but most notably in AR 700-127 and AMCR 
750-10. The intent is to ensure Army compliance with statutes affecting 
the performance of depot maintenance operations, especially in 10 USC 
2464, commonly referred to as the CORE statute. As the law proscribes, 
each Service will maintain a core capability to perform depot 
maintenance for equipment identified for potential combat operations. 
Generally speaking, the program office establishes an ad hoc committee 
to initiate this effort. This committee, frequently referred to as a 
sustainment integrated process team, develops the CORE requirements on 
behalf of the program manager. The team also initiates documentation 
for approval of these requirements, which then becomes the basis for 
determining those functions that will be ``in-sourced.''
    Mr. Ortiz. What plans do your services have in place to assist 
contractor employees whose functions may be insourced?
    General Chiarelli. We plan to fill our vacancies using the 
applicable civil service hiring rules. If a contractor chooses to 
reduce its workforce as a result of changes associated with execution 
of in-sourcing policy, individual contractor employees may be eligible 
to apply for the in-sourced or other government positions. Some may 
also be entitled to veterans' preference.
    Mr. Ortiz. Please provide details of all corrosion mitigation and 
prevention costs in your services' FY11 budget request.
    General Chiarelli. The Army has budgeted significant dollars to 
fight against corrosion. While not specifically identifiable in the 
Army Budget as corrosion mitigation funds, corrosion considerations are 
embedded in every activity throughout equipment life cycles.
    The Army has only one separate program element (PE) identified for 
corrosion prevention and control (CPC) in the Army budget which, is 
423013 for Operations and Maintenance (OSD PE 0708012A). This PE was 
established with funding for the Army Materiel Command to support five 
validated CPC activities: development and tracking of corrosion 
performance metrics, collection and reporting of corrosion data, rapid 
revision of corrosion specification, implementation of mature 
technologies, and overall program management. For FY11 the Army 
requested $4.339M for CPC in PE 423013.
    The vast majority of Army CPC efforts are not funded out of PE 
423013 but are embedded in other PEs and other functions as part of 
regular operations throughout the Army--functions such as material 
selection, production, packaging, storage, preservation, provisioning, 
standardization, training, regular maintenance, etc. These efforts play 
a critical role in preventing or controlling corrosion but are often 
ignored when discussing CPC activities. The amount of funds 
specifically budgeted for CPC are virtually impossible to isolate from 
the regular activities and costs of the total effort.
    Mr. Ortiz. How are your services handling the reset of equipment 
being redeployed from Iraq to original capability before it goes to 
Afghanistan?
    General Chiarelli. Equipment transferred from Iraq to Afghanistan 
is inspected and repaired in Kuwait under the oversight of U.S. Army 
Central Command so that it is fully mission capable and suited for 
current operations. Maintenance actions in Kuwait on equipment headed 
to Afghanistan does not constitute reset.
    Mr. Ortiz. Given that significant amounts of equipment are moving 
directly from Iraq to Afghanistan, what is the impact on your services' 
equipment reset and the reset budget?
    General Chiarelli. The Army is factoring this equipment into its 
Overseas Contingency Operations budgeting and workload forecasts so the 
movement from Iraq to Afghanistan merely delays reset costs. Equipment 
from Iraq is sent to Kuwait where it is repaired to fully mission 
capable status before being shipped to Afghanistan. These maintenance 
actions do not constitute reset. Such equipment will not return for 
reset in FY10 or FY11, decreasing our requirements in those years, but 
will still require reset upon redeployment from Afghanistan.
    Mr. Ortiz. What is the status of Army and Marine Corps 
prepositioned stocks? To what extent have your services drawn from 
prepositioned stocks over the past two years and what funding 
shortfalls currently exist with respect to your services' prepositioned 
materiel? What funds have been included in the FY11 budget requests to 
alleviate shortages? What shortage areas remain the greatest concern 
for your services?
    General Chiarelli. The Army reports readiness status for APS Unit 
Equipment Sets that are fully operational or plan to be operational in 
the near future. Detailed readiness levels are classified but projected 
levels of fill for APS-3 and APS-5 unit equipment sets are as follows:

    1)  APS-3 Afloat Army Strategic Flotilla (ASF) IV Theater Opening/
Port Opening Package (TO/PO) uploaded on the USNS Watson is currently 
enroute to the Pacific area of operations after completing a cargo 
maintenance cycle at Charleston, SC. The TO/PO Package has 97% 
Equipment On Hand (EOH) level of fill.

    2)  The APS-3 Afloat Infantry Brigade Combat Team (IBCT) with 
motorized augmentation set that will be uploaded on two Large Medium 
Speed Roll-on Roll-off (LMSR) ships in September and November 2010 has 
a projected 90% EOH level of fill. The Army plans to increase this 
level of fill prior to upload through available equipment from reset/
repaired OIF retrograded equipment, depot, and new production.

    3)  The APS-5 Southwest Asia (SWA) Heavy Brigade Combat Team (HBCT) 
with motorized augmentation set located in Kuwait, originally planned 
to be fully operational on 31 Mar 2010, is delayed to Mar 2011 due to 
the recent issue of medium and heavy tactical wheeled vehicles, 
Material Handling Equipment, and SINCGARS radios in support of the 
Operation Enduring Freedom (OEF) Expansion. The HBCT currently has an 
87% EOH level of fill which includes all tracked vehicles. The 
motorized augmentation set has 83% EOH fill. The Army plans to fill 
equipment shortages over the next year from reset/repaired Operation 
Iraqi Freedom (OIF) retrograded equipment, depot, and new production.

    4)  The APS-3 Infantry Brigade Combat Team (IBCT) with motorized 
augmentation set currently located in Kuwait has a 94% EOH level of 
fill; the motorized augmentation set has 99% EOH fill. Medium & Heavy 
Tactical Wheeled Vehicles, Tractors, Vans and Container Handlers were 
issued to help fill OEF Expansion requirements. This APS IBCT will 
become the APS-3 Army Strategic Flotilla II IBCT when no longer 
required by CENTCOM in SWA.

    5)  The APS-5 Infantry Battalion with Forward Support Company and 
motorized augmentation set located in Afghanistan has 74% EOH fill and 
is planned to be fully mission capable by Sep 2011, IAW the approved 
APS 2015 Strategy.

    Over the past two years, more than 2600 pieces of APS equipment 
have been issued in support of operations in OEF & OIF (OIF Surge and 
OEF Expansion). Examples of equipment drawn are tactical wheeled 
vehicles, trailers, engineer equipment, material handling equipment, 
communication equipment, and generators. APS funding ($7B OMA and OPA) 
is required from FY11-15 to maintain APS and complete the rebuilds of 
APS-5 (Fires Brigade and two Sustainment Brigades) and APS-3 
(Sustainment Brigade and IBCT).
    The FY11 budget request (Base & OCO) to execute the APS 2015 
Strategy tasks to be accomplished in FY11 totals approximately $2B. 
This includes Other Procurement Army (OPA) funding of $1.5B and 
Operations and Maintenance Army (OMA) funding of $545M. This funding 
will allow the Army to reconstitute portions of the APS required in the 
2015 APS Strategy and provide for Care of Supplies in Storage for APS-3 
and APS-5; further, this budget request funds five uploaded APS-3 Large 
Medium Speed Roll-On Roll-Off (LMSR) and container ships; and returns 
three LMSR ships from reduced operating to full operating status.
    For APS, shortages of tactical wheeled vehicles, generators, 
engineer, materiel handling, and communications equipment remain the 
greatest concern.
    Mr. Ortiz. What issues have precluded your services' achievement of 
the full reconstitution of prepositioned stocks? What is the current 
cost estimate of resetting or refilling prepositioned materiel and 
equipment to ensure compliance with requirements of current operations 
and the National Military Strategy?
    General Chiarelli. Several issues impact the speed with which the 
Army is able to fully reconstitute its prepositioned stocks. The main 
issue is the competing demand for equipment between units in combat 
operations, units in training at home station, and Army Prepositioned 
Stock (APS) requirements. Using APS-5 to illustrate, the Army has 
nearly completed the rebuild of APS-5 twice, but each time when 
reconstitution was nearly complete, a new requirement developed (first 
in Iraq, and most recently in Afghanistan), that caused us to issue 
some of the APS-5 stocks. This is not necessarily bad, as this APS set 
is doing precisely what it is intended to do--provide the warfighter a 
ready source of equipment for contingencies. The Army will continue to 
aggressively pursue the reconstitution of APS within competing 
priorities and available resources. We remain confident that APS 
reconstitution will be complete by 2015.
    Mr. Ortiz. The total cost to reconstitute and maintain Army 
Prepositioned Stocks across the Future Year Defense Plan (FY11-15) is 
approximately $7B.
    General Chiarelli. [The information referred to was not available 
at the time of printing.]
    Mr. Ortiz. One finding of the recently completed Mobility 
Capability Requirements Study 2016 was that the type of equipment in 
the prepositioned stocks may need to be reconsidered in terms of 
capabilities needed first in the warfight. What consideration are your 
services' giving to this finding, and what consideration are your 
services giving to potentially restructuring your prepositioning 
program, including locations?
    General Chiarelli. Although Mobility Capability Requirement Study 
2016 (MCRS-16) findings are a consideration in the analysis of Army 
Prepositioned Stocks (APS), APS composition and disposition are 
primarily driven by Combatant Commander Operational Plan (OPLAN) 
requirements. APS provides forward positioned equipment and sustainment 
stocks for maneuver and support formations employed in early phases of 
operational plans. The strategic purpose of APS is to support the 
warfight force flow needs, reassure allies, and provides Flexible 
Deterrence Options (FDO). There are two types of APS sets: a) Land-
based sets are regionally aligned sets that provide a robust, forward 
presence to deter potential hostile forces, and should deterrence fail, 
provide combat capability to defeat the enemy. b) Afloat equipment sets 
are multi-apportioned sets (not tied to a single regional scenario) 
providing strategically-agile, forward positioned, persistently present 
full spectrum operations capability that reinforce land-based sets in 
support of priority OPLAN requirements. In addition to priority OPLANs, 
APS supports an array of additional Combatant Commander operations, 
including counter-insurgency, irregular warfare, Humanitarian 
Assistance/Disaster Relief, Non-combatant Evacuation, Theater Security 
Cooperation, Building Partnership Capacity and training exercises. MCRS 
future scenarios and potential considerations are based on assumptions 
that are not entirely firm or precise. The mixture of versatile combat 
and support sets allows maximum agility and relevant support within the 
current operational environment. As Combatant Commander plans evolve, 
APS composition and disposition is reviewed and adjusted as necessary.
    Department of the Army is conducting an assessment that will take 
into account Guidance for the Employment of the Force, the MCRS-16 
analysis, an examination of updated war plan requirements and ongoing 
operations. The results of this assessment will be fully coordinated 
with the Joint Staff and United States Transportation Command, and 
incorporated into emerging APS strategies.
    Mr. Ortiz. How does the Quadrennial Defense Review strategy of 
supporting one rather than two major combat operations simultaneously 
change your services' calculation of war reserve requirements and how 
has this affected the FY11 budget?
    General Chiarelli. The defense strategy articulated in the 2010 
Quadrennial Defense Review (QDR) includes ``maintaining the ability to 
prevail against two capable nation-state aggressors.'' The Army is 
analyzing the QDR to determine how it affects war reserve planning 
factors and force structure. The end result will be war reserve 
requirements aligned with the QDR and a defense strategy to fight two 
major combat operations simultaneously. The QDR did not have a direct 
effect on the Army's FY11 war reserve budget, but it will influence 
future budget requests.
    Mr. Ortiz. What underlying requirements do your services use to 
build and rebuild their prepositioned stocks? Do these requirements 
vary by APS? Do these requirements reflect changes in your services' 
overall manning and deployment strategies?
    General Chiarelli. Army Prepositioned Stocks composition and 
disposition are primarily driven by Combatant Commander Operational 
Plan (OPLAN) requirements. APS provides forward positioned equipment 
and sustainment stocks for maneuver and support formations employed in 
early phases of operational plans. The strategic purpose of APS is to 
support the warfight force flow needs, reassure allies and provide 
Flexible Deterrence Options. There are two types of APS sets: a) Land-
based sets are regionally aligned sets that provide a robust, forward 
presence to deter potential hostile forces, and should deterrence fail, 
provide combat capability to defeat the enemy. b) Afloat equipment sets 
are multi-apportioned sets (not tied to a single regional scenario) 
that provide strategically-agile, forward positioned, persistently 
present full spectrum operations capability to reinforce land-based 
sets in support of priority OPLAN requirements. In addition to priority 
OPLANs, APS supports an array of Combatant Commander additional 
operations including counter-insurgency, irregular warfare, 
Humanitarian Assistance/Disaster Relief, Non-combatant Evacuation, 
Theater Security Cooperation, Building Partnership Capacity and 
training exercises. As Combatant Commander plans evolve, APS 
composition and disposition is reviewed and adjusted as necessary.
    Yes, based on the Guidance for the Employment of the Forces and 
Joint Services Capabilities Plan for directed OPLAN and Concept of 
Operation Plan requirements. The APS afloat assets are used to support 
multiple Combatant Commanders' warfight requirements and are not tied 
to a single scenario. The mixture of mission and enabler capabilities 
provides Combatant Commanders with operational flexibility. The APS 
ground based sets support rapid deployment and early entry forces in 
high threat environments.
    Yes, APS strategy development is directly linked to changes in the 
Army Force Generation process, force packaging and deployment strategy.
    Mr. Ortiz. What is your services' current plan for the disposition 
of MRAP vehicles upon conclusion of the wars in Iraq and Afghanistan? 
Will they be reset and made part of prepositioned equipment? If so, how 
many and where? What number of MRAP vehicles will be retained by your 
service and for what purpose?
    General Chiarelli. The Army expects to retain over 15,000 Mine 
Resistant Ambush Protected Vehicles (MRAPs)/MRAP-All-Terrain Vehicles, 
which will be placed in the force structure, and we have developed a 
draft allocation plan for the return of MRAPs from theater. This plan 
is currently under review by Army senior leaders. The proposed plan 
will reset vehicles as they are retrograded from theater and place a 
majority of the MRAP Fleet in Task Organized Brigade Combat Team sets 
that will deploy when MRAP levels of protection are required, similar 
to Army Prepositioned Stocks. Approximately a quarter of the MRAPs will 
be placed in Transportation, Explosive Ordinance Disposal units, and 
echelon above brigade Medical units. In these cases, MRAPs are either 
displacing other platforms or filling platform shortages. A limited 
number will be placed in training sets, to be drawn upon by units to 
conduct driver and collective training as required and for Sustainment 
Stock and War Reserve. This proposed allocation plan provides 
operational flexibility and mitigates the storage and maintenance 
burden on home station units.
    Mr. Ortiz. A significant number of non-standard items of equipment 
have been procured to support ongoing operations in Iraq and 
Afghanistan. What types of equipment does this category include? What 
is your service's plan for the disposition of this equipment, including 
the cost to repair and maintain it? If retained at the organizational 
or depot level, what are the expected storage requirements? Are repair, 
maintenance and storage requirements reflected in the FY11 budget?
    General Chiarelli. Non-Standard Equipment (NS-E) has played a 
significant role in enhancing the Army's capabilities. The MRAP, the 
various types of IED defeat devices, base entry intrusion protection 
systems, and commercial power generation equipment are some examples.
    Disposition procedures for NS-E no longer required in Iraq (or 
Afghanistan) are laid out in a detailed HQDA order, but generally, our 
first priority is to redistribute those items to meet needs elsewhere 
in the CENTCOM area of operations. If not required anywhere in CENTCOM, 
by the Army, another Service, or another U.S. Government agency, then 
items will either be stored for future use, or disposed of. The Army 
has painstakingly gone through each item of NS-E that we own, and pre-
determined whether it is something we will retain, or something we will 
dispose of.
    Retained NS-E will be stored as part of Army Pre-positioned Stocks 
(APS), or in a CONUS supply depot. ``Retained NS-E'' will be stored 
until it is re-distributed to meet a future requirement, a decision is 
made to make it a Program of Record and integrate it into the force, or 
the requirement for it no longer exists (at which time it will be 
disposed of ). The Army will budget for ``Retained'' NS-E that is 
either stored or left in use in units. An example is the MRAP. By FY11, 
MRAP sustainment will be incorporated as part of APS and in some cases, 
added to unit tables of organization and equipment, like all other 
materiel authorized for use in units. ``Retained'' NS-E for which the 
Army does not have an enduring need, yet has utility to support 
potential future missions will be reset in theater using Overseas 
Contingency Operations (OCO) funds and stored.
    Not-to-be-Retained items will not be brought back from Southwest 
Asia, but rather will be redistributed in theater or disposed of. The 
Not Retained NS-E that is excess to CENTCOM requirements is being 
offered to the Department of State (US Mission Iraq) and the National 
Association of State Agencies for Surplus Property (NASASP), or for 
Transfer to Coalition or host nation. Examples of Not Retained NS-E 
equipment include: exercise equipment; computers and monitors; office 
furniture; air conditioners; and commercial generators. It is important 
to note that some NS-E does not meet U.S. specifications or U.S. 
Customs clearance requirements, has been in theater for a number of 
years and is now beyond its expected useful life.
    Mr. Ortiz. Please explain the statement ``The Navy's FY 2010 OCO 
appropriation did not fully capture OEF execution requirements'' and 
describe the pressures that this realization has put on your FY11 
budget request, particularly the flying hour program.
    Admiral Greenert. Submission of the FY10 OCO budget request in May 
2009 occurred as the Navy was shifting to a much higher flight hour 
OPTEMPO associated with longer flights into Afghanistan than into Iraq, 
and to a higher Carrier Strike Group presence reflected in the CENTCOM 
Commander's Request for Forces. A portion of these OPTEMPO increases 
were included in the FY10 Supplemental Request, and they were fully 
captured in the FY11 OCO Request. The combination of the FY11 OCO 
Request and FY11 baseline budget support the higher OEF OPTEMPO 
overall, and the required level of FY11 flying hours in particular.
    Mr. Ortiz. Reset for the Navy has not had the same focus as Army 
and Marine Corps equipment reset because Navy forces are being applied 
in a different manner in support of OIF and OEF. Please explain the 
Navy's approach to reset and the challenges the Navy faces in this 
area, especially for the Navy Expeditionary Combat Command.
    Admiral Greenert. The Navy Expeditionary Combat Command (NECC) 
approach to reset is similar to Army and Marine Corps reset. It is 
composed primarily of equipment deployed to a theater in support of a 
specific ground combat contingency operation. For instance, equipment 
in OIF is transferred to staging areas where it is received and 
inspected. At the staging area, disposition is made to either divest or 
retrograde. In general, Mine Resistant Ambush Protected (MRAP) 
vehicles, communications equipment, and small craft are retrograded, 
while other equipment is evaluated based on condition and economic 
analysis. If a piece of equipment will cost more to transport and 
repair than to replace, the equipment will be divested. A significant 
portion of the life support equipment (e.g., tents, field gear, etc.) 
is not economical to transport/repair. This equipment is divested in 
country through Defense Reutilization Management Office (DRMO) and 
replaced by the appropriate systems command (SYSCOM). Retrograded 
equipment is repaired through the SYSCOM overhaul process and prepared 
for redeployment. Specifically, two Seabee battalion equipment sets 
(construction equipment), Maritime Expeditionary Security Force small 
craft and squadron equipment sets that had been in OIF for over six 
years constitute a significant portion of the reset requirement. NECC's 
reset requirements are also related to the Personal Gear Issue (PGI), 
tool kits, and special equipment associated with continuous EOD platoon 
deployments. Additionally, the presence within OIF of a Riverine 
Squadron since February 2007 with its combatant craft, tactical 
equipment, life support, and communications gear requires attention. 
Finally, Navy Expeditionary Logistics Support Group and Combat Camera 
equipment are also included in the FY11 reset plan. NECC and Naval 
Facilities Engineering Command (NAVFAC) are also exploring 
opportunities with the Army and Marine Corps to overhaul equipment in 
theater at existing facilities. NECC and all Naval assets will have 
reset requirements that will exist after OIF/OEF ends as we evaluate, 
restore, or replace equipment upon return to CONUS. These requirements 
are being evaluated and will change as OPTEMPO and capability 
requirements change.
    The Navy's biggest challenge with reset is establishing the 
appropriate baseline OPTEMPO for the future. Our OPTEMPO in CENTCOM 
will continue as the combat mission ends in Iraq. Navy enabling forces 
will remain in CENTCOM to provide various combat support/combat service 
support to Joint and coalition forces in the region. Concurrently, we 
will continue to maintain a forward-deployed force of about 100 ships 
globally to prevent conflict, support allies, and respond to crises. 
Navy ships and aircraft are capital-intensive forces, procured to last 
for decades. Scheduled maintenance of our force structure, and training 
and certification of our crews between deployments is a key element in 
the ``reset'' of the force. This ``reset in stride'' process is perhaps 
different from other Services. It enables our ships and aircraft to 
rotate deployments and provide continuous forward presence as well as 
be ready for sustained surge operations, such as the humanitarian 
assistance and disaster relief in Haiti recently. We are perhaps unique 
in that our maintenance accounts maintain the force, modernize, and 
``reset in stride'' for the service lives of our platforms. Since 
increased emergent operations are consuming the expected service lives 
of Fleet units, at an advanced rate, Navy relies on OCO to fund 
overseas contingency operations and ``reset-in-stride''.
    Mr. Ortiz. What price has the Navy paid for pulling out of its 
engineered approach to maintenance? Was Navy onboard manning cut too 
deeply? How is the Navy correcting this situation?
    Admiral Greenert. The Navy has always utilized an engineered 
approach to maintenance with a focus on reducing maintenance costs 
while increasing operational availability. In the late 1990s, the Navy 
shifted its practices from calendar-based periodicities and long 
industrial periods for its surface ships to a maintenance regime that 
relies upon the principles of reliability-centered maintenance and 
condition-based maintenance. This transition instituted the conduct of 
Phased Maintenance Availabilities of shorter duration that reduced the 
time the platforms were unavailable for deployment. These changes 
resulted in a focus on short term, ``get the ship underway'' type of 
work, instead of life cycle focused work associated with tanks, 
structures and distributed systems, which added risk to our ability to 
reach the expected service life for our surface ships.
    In May 2009, Navy established the Surface Ship Life Cycle 
Maintenance (SSLCM) Activity to provide life-cycle support for all 
classes of surface ships comparable to the engineering planning and 
support provided to nuclear powered submarines and aircraft carriers. 
The primary mission of this organization is to provide centralized 
life-cycle management of the surface ship Class Maintenance Plans 
(CMPs) to support fleet operational requirements and to enable ships to 
achieve expected service life. The SSLCM Activity has completed 
engineering assessments of maintenance requirements for DDG 51 and LSD 
41/49 class ships, resulting in a more robust technical foundation to 
support programming and budgeting decisions.
    Onboard manning on surface ships has been reduced as a result of 
optimal manning initiatives. The analysis conducted for that effort 
focused on ensuring that ships are assigned sufficient numbers of 
trained people to stand the watches required to operate the ship in 
battle. There was a conscious decision to move part of the maintenance 
workload from the smaller ship crews to shore maintenance 
organizations. Simultaneously, the Navy implemented separate actions to 
consolidate maintenance organizations in a drive for efficiency and 
reduction in shore infrastructure.
    The number of people who are actually onboard a ship can be 
different from the Navy Manning Plan for that vessel for a variety of 
reasons, including Individual Augmentee assignments, unplanned losses, 
temporary injury or illness situations and the timing associated with 
Sailors' detaching and reporting. Recent INSURV inspections and other 
independent assessments have determined that the optimal manning effort 
might have gone too far in the case of ships that deploy for lengthy 
periods without regular access to fully equipped maintenance 
facilities. The situation is under current review and will be addressed 
in the next budget cycle.
    Mr. Ortiz. What training actions is the Navy taking in response to 
the recent dramatic increase in removals of commanding officers for 
cause, including six firings in the first three months of this calendar 
year?
    Admiral Greenert. Navy leadership takes the recent detachments for 
cause among commanding officers very seriously. We are assessing the 
situation to determine whether there are common threads that indicate a 
need for systemic changes in training. Our preliminary review suggests 
that the detachments have not been the result of any single underlying 
cause associated with failure in the training or commanding officer 
selection processes, but have been largely attributable to personal 
behavior or failure of leadership issues. Commanding officers are 
required to maintain high standards of leadership and conduct, and 
current training emphasizes these requirements. Should we identify 
specific issues that warrant changes in training, we will promptly 
implement the necessary changes.
    Mr. Ortiz. Secretary Mabus last month discussed the Navy's 
substantial increase in operation and maintenance funding as a critical 
component of military readiness. The subcommittee has advocated for 
conditioned based maintenance as a means of cost savings by allowing 
real-time monitoring of a ship's components, thereby allowing the crew 
to repair machinery in advance of catastrophic failures. CBM also 
reduces the logistical footprint necessary to conduct costly and time-
consuming bow-to-stern examinations. As the Navy engages in cost-
effective decisions to build the most capable force, what is being 
considered to integrate CBM systems into ships' design rather than 
retrofitting after commissioning?
    Admiral Greenert. The Navy employs a variety of Condition Based 
Maintenance (CBM) Systems on our in-service platforms today, most 
notably the Integrated Condition Assessment System (ICAS) which is 
installed on 103 platforms with 26 programmed for installation. For new 
ship designs, CBM systems and processes are integral elements of both 
the DDG 1000 and the Littoral Combat Ship (LCS) systems, as required by 
OPNAVINST 4790.16A, Condition Based Maintenance (CBM) Policy. Both 
ships have reduced manning levels relative to previous ship classes of 
the same size, which as a design parameter has driven the need to take 
CBM to new levels of analysis and detail. In DDG 1000, instrumentation 
that monitors system performance is coupled with distance support 
systems that provide enhanced information exchange that enables greater 
shore based support to the ship and its crew. LCS is also implementing 
CBM in order to meet maintenance strategy requirements as defined in 
the Capability Development Document (CDD). LCS conducted a Failure 
Mode, Effects and Criticality Analysis (FMECA) for key systems, and 
implemented CBM processes that identify critical components and 
externally induced degradation factors, that when combined with future 
ship operations requirements, enable the prediction of the best time to 
conduct maintenance. This reliability engineering-based CBM approach, 
designed in up front, maximizes the ship's operational availability, 
reduces the frequency of unplanned maintenance, reduces overall 
maintenance costs and minimizes the maintenance burden on the crew. 
Systems for which CBM is being developed for DDG 1000 and LCS can then 
be used, either directly or with some modification, for either existing 
ships (backfit) or reused in the design of future ships (forward fit), 
providing similar benefits for those ships.
    In addition to the DDG 1000 and LCS Classes, the LPD 17 Class has 
CBM systems installed during construction and new construction DDG 51 
Class ships (DDG 113 and follow) and the Ship-to-Shore Connector (SSC) 
will have CBM systems as part of their design.
    Mr. Ortiz. How does the FY11 budget request prepare each of your 
services for future conflict?
    Admiral Greenert. The Department's objectives, priorities and 
budget are aligned with the National Defense Strategy, and address the 
requirement to train and maintain a force capable of executing 
Combatant Commander Operational Plans (OPLANs), preventing/deterring 
conflict, and prevailing in a range of future contingencies. The FY 
2011 budget supports Fleet Response Plan OPTEMPO, providing the 
training and surge capability to meet today's OPLAN requirements, as 
well as those of future contingencies, effectively and decisively. The 
FY11 budget resources ship and aircraft depot maintenance requirements 
to 99% and 96%, respectively. These investments are key to ensuring 
that today's force is not only available for current contingencies, but 
are maintained in proper condition for future engagement.
    Mr. Ortiz. What concerns do each of you have regarding how much of 
your O&M requirement is funded through OCO, particularly depot 
maintenance? When and how do you see that funding migrating back to the 
base budget?
    Admiral Greenert. The Navy is currently engaged with the Office of 
the Secretary of Defense to assess funding and requirements, and in 
particular to properly characterize the distinction between enduring 
baseline and OCO requirements. Findings from this effort will serve as 
the basis for adjusting ship and aircraft depot maintenance 
requirements and funding profiles.
    Mr. Ortiz. What impact has OMB's new rules regarding what can be 
and cannot be included in the OCO request had on your services' 
requests for reset funding?
    Admiral Greenert. OMB's guidelines for funding of OCO requests have 
not limited the Operation & Maintenance accounts reset funding. Depot 
Maintenance funding for the Navy's air, ship and ground forces is in 
line with the level of operational effort being expended in support of 
the ongoing overseas contingencies.
    OMB rules do impact reset funding of assets experiencing high 
contingency operation OPTEMPO wear and tear, which has caused ``stress 
losses'' (accelerated fatigue life consumption) mainly within the 
aviation community, and to a lesser extent on ground equipment within 
the Dept of Navy. These stress loss assets (reduced operating life 
remaining) represent a growing reset cost that will have to be 
addressed in order to properly restore the Navy to full operational 
capability.
    Mr. Ortiz. For logistics support that is being brought back in-
house to be performed by service personnel, do your services have the 
necessary technical data packages?
    Admiral Greenert. DASN (A&LM) is not aware of any specific DoN 
examples of logistics support that is being brought back in-house to be 
performed by service personnel. The current DoDINST 5000.2 requires 
that program managers have a Data Management Strategy (DMS) that 
includes defining the ``data required to design, manufacture, and 
sustain the system; as well as to support re-competition for 
production, sustainment, or upgrades''. When creating a DMS, a program 
manager must also assess the merits of including a priced contract 
option for the future delivery of technical data and intellectual 
property rights not acquired upon initial contract award and identify 
the risks to the program by not obtaining those data rights. The DMS is 
a recent requirement, therefore, the status of individual programs 
would need to be evaluated on a case-by-case basis.
    Mr. Ortiz. What criteria have been established for determining 
which functions should be insourced?
    Admiral Greenert. The identification of contract support efforts 
and services appropriate for in-sourcing positions began with a review 
the Section 807 (10 USC Sec. 2330a(c)) inventory of contracts and 
evaluating new workload requirements to ensure they are appropriately 
resourced and staffed by military, government civilians, or contractual 
efforts. This process, led by OSD P&R, is ongoing. Section 2463 of 
Title 10 United States Code requires the Department of Defense to 
ensure consideration is given to using DoD civilian employees to 
perform functions that are performed by contractors but could be 
performed by DoD employees. The DoD has issued guidance that implements 
these provisions and provides the appropriate authorities and tools for 
making determinations to in-source the performance of functions that 
are inherently governmental, closely related to inherently 
governmental, inappropriately contracted personal services or exempt 
from private sector performance. Further, contracts in which government 
employees can perform the services more cost effectively or contracts 
that are performing poorly may also be candidates for in-sourcing under 
10 USC Sec. 2463.
    Mr. Ortiz. What plans do your services have in place to assist 
contractor employees whose functions may be insourced?
    Admiral Greenert. [The information referred to was not available at 
the time of printing.]
    Mr. Ortiz. Please provide details of all corrosion mitigation and 
prevention costs in your services' FY11 budget request.
    Admiral Greenert. [The information referred to was not available at 
the time of printing.]
    Mr. Ortiz. As the nation's strategic reserve forces, what impact 
will emergent Request for Forces have on execution of your FY11 
readiness budget?
    Admiral Greenert. The impact of Request for Forces (RFF) on the 
execution of the FY11 budget is dependant on the nature and scope of 
the RFFs, which are approved by the Secretary of Defense. RFF impact 
spans the range of shifting forces from other previously planned 
Combatant Commander missions, deploying additional forces that are in 
Fleet Response Plan surge-ready status, or activating units in Reduced 
Operating Status. When forces shifted to a higher OPTEMPO AOR (e.g., 
PACOM to CENTCOM) are deployed from a surge-ready status, or are 
activated from a Reduced Operating Status, incremental (unbudgeted) 
costs are incurred, requiring supplemental funding or mitigation from 
other requirements. The unbudgeted emergent costs can be significant. 
For example, the incremental flying hour costs alone of shifting a 
Carrier Air Wing from a non-CENTCOM AOR to CENTCOM are on the order of 
$20M per month.
    Mr. Ortiz. What is the status of Navy and Air Force prepositioned 
stocks? To what extent have your services drawn from prepositioned 
stocks over the past two years and what funding shortfalls currently 
exist with respect to your services' prepositioned materiel?
    Admiral Greenert. The Navy prepositioned material loaded on to each 
of the Maritime Prepositioned Squadrons (MPSRONs) is currently at 99%. 
The Navy is currently in the midst of deploying new equipment, the 
Improved Navy Lighterage System (INLS) and Waterfront Equipment (WE), 
which replace aging and outdated material currently onboard ships.
    Overall, there remains a mix of old and new equipment because 
several of the ships have not rotated through their maintenance cycle 
in order to replace their equipment. All ships will have the new INLS 
and WE by the summer of 2011.
    Navy lighterage and 35 pieces of Civil Engineering Support 
Equipment (vehicles, generators, etc) were drawn recently in support of 
the Haiti relief operations. All the Navy lighterage has been returned 
to the ships. The Navy has accountability and visibility of the Civil 
Engineering Support Equipment which will be returned shortly via 
surface lift.
    Otherwise, over the past two year the Navy prepositioned equipment 
has only been drawn for exercise purposes. Equipment is typically 
utilized for a period of 30-60 days and then returned onboard the ship.
    The Navy does not have a funding shortfall for its prepositioned 
material, however it should be noted that the Navy does not have 
``fenced'' funds strictly to support its prepositioned material.
    Mr. Ortiz. How long will it take the Marine Corps to recover key 
core warfighting capabilities following cessation of operations in Iraq 
and Afghanistan?
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. How important is reset to the Marine Corps' ability to 
sustain equipment for current operations in Afghanistan and to provide 
for ongoing training of non-deployed and next-to-deploy units?
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. How much of the increased maintenance costs for the MV-
22 are captured in the FY11 budget request? How does the Marine Corps 
plan to mitigate the shortfall?
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. How are your services handling the reset of equipment 
being redeployed from Iraq to original capability before it goes to 
Afghanistan?
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. Given that significant amounts of equipment are moving 
directly from Iraq to Afghanistan, what is the impact on your services' 
equipment reset and the reset budget?
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. What is the status of Army and Marine Corps 
prepositioned stocks? To what extent have your services drawn from 
prepositioned stocks over the past two years and what funding 
shortfalls currently exist with respect to your services' prepositioned 
materiel? What funds have been included in the FY11 budget requests to 
alleviate shortages? What shortage areas remain the greatest concern 
for your services?
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. What issues have precluded your services' achievement of 
the full reconstitution of prepositioned stocks? What is the current 
cost estimate of resetting or refilling prepositioned materiel and 
equipment to ensure compliance with requirements of current operations 
and the National Military Strategy?
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. One finding of the recently completed Mobility 
Capability Requirements Study 2016 was that the type of equipment in 
the prepositioned stocks may need to be reconsidered in terms of 
capabilities needed first in the warfight. What consideration are your 
services giving to this finding, and what consideration are your 
services giving to potentially restructuring your prepositioning 
program, including locations?
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. How does the Quadrennial Defense Review strategy of 
supporting one rather than two major combat operations simultaneously 
change your services' calculation of war reserve requirements and how 
has this affected the FY11 budget?
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. What underlying requirements do your services use to 
build and rebuild their prepositioned stocks? Do these requirements 
vary by APS? Do these requirements reflect changes in your services' 
overall manning and deployment strategies?
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. What is your services' current plan for the disposition 
of MRAP vehicles upon conclusion of the wars in Iraq and Afghanistan? 
Will they be reset and made part of prepositioned equipment? If so, how 
many and where? What number of MRAP vehicles will be retained by your 
service and for what purpose?
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. A significant number of non-standard items of equipment 
have been procured to support ongoing operations in Iraq and 
Afghanistan. What types of equipment does this category include? What 
is your service's plan for the disposition of this equipment, including 
the cost to repair and maintain it? If retained at the organizational 
or depot level, what are the expected storage requirements? Are repair, 
maintenance and storage requirements reflected in the FY11 budget?
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. How does the FY11 budget request prepare each of your 
services for future conflict?
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. What concerns do each of you have regarding how much of 
your O&M requirement is funded through OCO, particularly depot 
maintenance? When and how do you see that funding migrating back to the 
base budget?
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. What impact has OMB's new rules regarding what can be 
and cannot be included in the OCO request had on your services' 
requests for reset funding?
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. For logistics support that is being brought back in-
house to be performed by service personnel, do your services have the 
necessary technical data packages?
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. What criteria have been established for determining 
which functions should be insourced?
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. What plans do your services have in place to assist 
contractor employees whose functions may be insourced?
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. Please provide details of all corrosion mitigation and 
prevention costs in your services' FY11 budget request.
    General Amos. [The information referred to was not available at the 
time of printing.]
    Mr. Ortiz. As the nation's strategic reserve forces, what impact 
will emergent Request for Forces have on execution of your FY11 
readiness budget?
    General Chandler. [The information referred to was not available at 
the time of printing.]
    Mr. Ortiz. What is the status of Navy and Air Force prepositioned 
stocks? To what extent have your services drawn from prepositioned 
stocks over the past two years and what funding shortfalls currently 
exist with respect to your services' prepositioned materiel?
    General Chandler. With regard to general War Reserve Materiel 
(WRM), over the past two years 370 vehicles, 221 pieces of aerospace 
ground equipment, 403 fuels operational readiness capability equipment 
assets, and 6,138 miscellaneous pieces of equipment have been drawn 
from prepositioned stock to support Operation Iraqi Freedom (OIF), 
Operation Enduring Freedom (OEF), and theater security posture and 
exercise requirements. Additionally, the Air Force Basic Expeditionary 
Airfield Resources (BEAR) program has deployed the equivalent of 43 
initial housekeeping sets (capable of supporting 550 personnel per 
set), one stand-alone Swift BEAR housekeeping set (capable of 
supporting 150 personnel), and an additional 12 mobile electric power-
12 (MEP-12) generators in support of OIF/OEF over the past two years. 
As BEAR converts from the initial housekeeping set to unit type code 
(UTC) configuration, there are 3,807 UTCs that are mission capable and 
2,368 UTCs that are either partially or non-mission capable.
    Currently, the total shortfall in Air Force prepositioned materiel 
is $905.3 million dollars. The Air Force is requesting an additional 
$315 million dollars in overseas contingency operations to re-set these 
assets. There is an additional shortfall of $211 million across the 
future year defense plan to fund BEAR Air Force Central operations.
    Mr. Ortiz. While the O&M budget shows a 7.3% increase, much of that 
is based on inflation and fuel costs and other cost-growth factors. We 
are concerned that readiness within the Air Force may be continuing to 
decline as a function of aging aircraft and increased optempo. What 
actions is the Air Force taking to improve its readiness?
    General Chandler. The Air Force is addressing readiness using a 
two-fold approach. First, aging issues are addressed through predictive 
sustainment engineering, service life extension, and component 
improvement programs. Second, the Air Force is investing in procurement 
and recapitalization for the F-35, KC-X and legacy aircraft 
modifications. Overseas Contingency Operations have presented a 
constant challenge since late 2001, and the Air Force has dealt with 
increased operations tempo by modifying our deployment construct to 
account for surges and capture actual risk levels, and deploy-to-dwell 
ratios.
    Mr. Ortiz. Weapons system sustainment is funded at 82 percent, with 
only 63 percent covered in the base budget. What risks are being taken 
with that level of funding? And does the Air Force deem this as 
acceptable risk now that you have determined that you'll need service 
life extension programs on almost all of your aircraft to meet your 
inventory requirements in the out-years?
    General Chandler. At 65 percent funding for weapon system 
sustainment (WSS), the Air Force will experience some risk in materiel 
readiness. To balance Air Force resources and ensure our highest 
priorities are funded, the Air Force requested overseas contingency 
operations funding ($2.3 billion) to meet contingency requirements. 
This additional funding brings the Air Force to an 82 percent funding 
level and ensures balanced risk across the Air Force WSS portfolio. The 
drop in the percentage of requirements funded in the baseline is the 
result of requirements growth out-pacing funding growth. The level of 
risk associated with 82 percent funding resulted in weapon system 
sustainment being the number one requirement on the unfunded priority 
list.
    Mr. Ortiz. With the end of the production line for the F-22, and 
the delay in the JSF schedule, how does that now affect the assumptions 
that the Combat Aircraft Restructuring plan was based upon? Will these 
facts affect how the Air Force moves forward with the retirement of 250 
additional legacy aircraft?
    General Chandler. There are no impacts to the Combat Air Force 
Restructure (CAF-R) Plan assumptions. The CAF-R plan assumed that the 
F-22 production would end at approximately 187 aircraft and the F-35 
will be replacing F-16s over the next 20 years--a slip to IOC will have 
minimal impact to the overall war fighting risk of the plan. A recent 
independent study by RAND concluded that the Air Force will need more 
fifth-generation fighters, long-range strike capability, and critical 
munitions in the near-to-mid term, with or without the restructure. The 
retirement of 257 legacy aircraft does not significantly add to these 
risks.
    The delay in F-35 IOC will also not impact the execution of the 
plan. QDR assessments indicate that the programmed force of strike 
aircraft will be sufficient to defeat potential adversaries, including 
those with advanced anti-access capabilities; however, we have accepted 
an increased level of risk. The AF has also postured the A-10 and F-16 
fleets for potential F-35 program delays as this aircraft is being 
designed and fielded as their replacement.
    Mr. Ortiz. Were the commanders at our overseas bases consulted and 
included in the decisions made related to the CAF restructuring plan? 
Was Bruce Lemkim, deputy under secretary of the Air Force for 
International Affairs, consulted regarding the impact of the reductions 
on the service's ability to build partnership capacity?
    General Chandler. All affected Major Commands (MAJCOMs) and the 
Reserve Component were involved in the decision to restructure the Air 
Force fighter force, and in developing the plan to identify the bases 
and units that would be impacted. Throughout the Air Force Corporate 
Process, the International Affairs Directorate of the Air Force 
Secretariat (SAF/IA) was represented and involved in developing the 
Combat Air Forces Restructuring plan. When the reductions directly 
affected activities and functions for which SAF/IA provides oversight, 
SAF/IA provided appropriate input to the process, such as advocacy for 
sufficient aircraft to conduct tuition-based international training. It 
is important to note that the Air Force Component Commanders are 
responsible to define requirements for operational forces necessary to 
accomplish their mission, including building partnerships (BP) in their 
AOR. SAF/IA assists the Air Force Component Commanders in helping 
partner nations develop appropriate air power capabilities in 
accordance with US national objectives.
    Mr. Ortiz. How was the Air Force decision made to accelerate the 
retirement of legacy fighter aircraft? Are you worried about the 
potential gaps that could be created in our homeland defense systems, 
such as Air Sovereignty Alert?
    General Chandler. The decision to accelerate the retirement of 
legacy aircraft was made after evaluating our requirement for force 
structure to fulfill the National Military Strategy with a tolerable 
level of risk. Savings from the accelerated retirement allowed the Air 
Force to increase its capacity in several mission priorities such as 
the nuclear enterprise and intelligence, surveillance, and 
reconnaissance. Homeland defense is a DoD priority mission, and the Air 
Force anticipates no gaps in our ability to support Operation NOBLE 
EAGLE due to legacy fighter aircraft retirement.
    Mr. Ortiz. The GAO made a number of recommendations related to the 
Air Force Air Sovereignty Alert mission. What is the status of 
implementing those recommendations?
    General Chandler. The January 2009 GAO report to Congress titled 
``HOMELAND DEFENSE: Actions Needed to Improve Management of Air 
Sovereignty Alert Operations to Protect U.S. Airspace'' provided us 
with five recommendations to improve air operations. Since its 
publication, we have continuously tracked our progress in fulfilling 
the recommendations made by the GAO. The Air Force is on track to 
institute the GAO recommendations.
    Update and implement the homeland air defense alert program action 
directive (PAD): The Air Force completed a review of all PAD required 
actions, verifying that each has been accomplished. The Air Force 
incorporated pertinent PAD issues into a comprehensive policy document 
currently undergoing final approval.
    Update the Air Force homeland defense policy, homeland operations 
doctrine, and CONOPS to incorporate & define the roles and 
responsibilities for homeland air defense alert operations: The GAO 
report provided additional substance and specifics for updating Air 
Force Policy Document 10-8, Homeland Defense and Civil Support. A 
revised version of this document is undergoing final approval, and 
incorporates GAO findings and recommendations. It also incorporates 
information from the DOD Strategy on Homeland Defense & Civil Support, 
the roles and responsibilities of OASD (HD & ASA), and details from the 
program action directive. This Air Force Doctrine Document will be 
subsequently reviewed at a regularly scheduled interval.
    Incorporate the homeland air defense alert mission within the Air 
Force submissions for the 6-year Fiscal Year Defense Program (FYDP): 
Since Fiscal Year 2004, the Air Force has incorporated the Homeland 
Defense mission in its submission of the Air Force Program Objective 
Memorandum for the 6-year FYDP. Additionally, the 2009 National Defense 
Authorization Act (NDAA) required that Air Force provide Congress with 
a report regarding expenditures on the ONE mission.
    Develop and implement a plan to address any projected capability 
gaps in homeland air defense alert units due to the expected end of the 
useful service lives of their F-15s and F-16s: Defense of the homeland 
is a priority mission of the Air Force--we will not back away from that 
responsibility. The Air Force anticipates no potential gaps in our 
ability to support ONE caused by legacy fighter aircraft retirement.
    Add Operation NOBLE EAGLE to Units DOC Statements: As of August 
2009, as recommended by the GAO report, we completed inserting the 
requirement for air defense alert into the Designed Operational 
Capability statements for all units engaged in ONE. As a result, the 
unit readiness to perform the mission will be specifically monitored.
    Develop and implement a formal method to replace deploying units 
that still provides unit commanders flexibility to coordinate 
replacements: Under the Secretary of Defense-approved Global Force 
Management construct, combatant commanders and NORAD state requirements 
for forces through US Joint Forces Command (USJFCOM). Subsequently, 
USJFCOM requests forces from Air Combat Command (ACC), the Air Force 
forces provider. ACC currently has a formal process in place to meet 
USJFCOM sourcing requests, using successive steps to cover ONE alert 
operations for a deploying unit. Since 9/11, all USJFCOM requests for 
Air Force sourcing have been fulfilled.
    Mr. Ortiz. There have been conflicting reports on the numbers of 
Air Force augmentees in theater and whether that number will decrease 
or increase as a result of the drawing down of forces in Iraq and the 
surge of forces into Afghanistan. What impact does the augmentee 
mission have on the overall Air Force mission? How does it affect 
Readiness?
    General Chandler. We remain fully engaged in supporting the Joint 
team, anticipating a slight rise in the number of Air Force augmentees 
in theater from approximately 1,500 in Fiscal Year 2010 to 1,600 in 
Fiscal Year 2011. This increase will impact the mission, diminishing 
our organized, trained and equipped unit capabilities. In addition, 
augmentee sourcing is generally supported by Field Grade Officers and 
Senior Non-Commissioned Officers, which adversely affects unit 
leadership, training, and capability. Air Force end-strength does not 
account for augmentee tasks which are over and above postured 
capability. Additionally, augmentees tend to be tasked to high tempo 
capability areas such as Intelligence, Communications, Logistics 
Readiness, etc, further exacerbating sustainment of rotational 
sourcing. Despite these challenges, we will continue to be ``All In'', 
providing the needed support to the war-fighting commander.
    Mr. Ortiz. The flying hour program has been decreased by a 
significant amount in the FY11 budget request. Please explain.
    General Chandler. The Fiscal Year 2011 peacetime flying hour 
program is fully funded. Due to Overseas Contingency Operations (OCO) 
taskings, the Air Force historically under-executed peacetime hours and 
over-executed OCO hours. The peacetime flying hour program was 
optimized for Fiscal Year 2011 to bring the President's Budget in line 
with expected peacetime execution. If OCO taskings decrease in future 
years, contingency hours will be realigned to the peacetime program.
    Mr. Ortiz. How does the FY11 budget request prepare each of your 
services for future conflict?
    General Chandler. With the FY11 budget request, the Air Force is 
balancing today's demands with preparing for a wide range of potential 
future conflicts. Specifically, the Air Force has invested Research, 
Development, Test and Evaluation (RDT&E) and Procurement funds towards 
expanding our Intelligence, Surveillance, and Reconnaissance (ISR) 
capability, supporting the increased focus on Irregular Warfare and 
Building Partnerships, and developing new and emerging technologies.
    Our RDT&E request invests in critical technology and competitive 
concept exploration for Long Range Strike, a ``family of systems'' to 
provide responsive global force projection and precision force 
application for military utility in the 2020 plus timeframe. The RDT&E 
request will also begin KC-X tanker development, continue F-35 flight 
testing and F-22 3.2 software development, and enhance our legacy 
fighter capability with F-15 Active Electronically Scanned Array (AESA) 
radar development.
    Our procurement request invests in 5th Generation fighters and 
improves ISR capability with buys of 22 F-35 Lightning II aircraft, and 
40 unmanned aircraft (36 MQ-9 Reapers and 4 RQ-4 Global Hawks). 
Additionally, we're investing in MQ-1 Predator datalink, ground 
control, and sensor modifications, as well as target location accuracy 
and high definition video for the MQ-9.
    Our increased focus on Irregular Warfare and Building Partnership 
Capacity is highlighted in our FY11 request with procurement of 15 
Light Mobility Aircraft (LiMA). This commercial off the shelf (COTS) 
aircraft will help prepare partner nations (PN) to defend and govern 
themselves by demonstrating airlift capability consistent with PN needs 
and anticipated methods of employment.
    Mr. Ortiz. What concerns do each of you have regarding how much of 
your O&M requirement is funded through OCO, particularly depot 
maintenance? When and how do you see that funding migrating back to the 
base budget?
    General Chandler. The Air Force's current baseline maintenance and 
sustainment funding is insufficient to cover both baseline and OCO 
requirements. Depot maintenance, a subset of the Weapon System 
Sustainment (WSS) portfolio, includes both organic and contract 
maintenance, sustaining engineering and technical order updates. 
Despite continuous increases in baseline funding for weapon system 
sustainment since 2003, requirements growth has continued to 
significantly outpace funding growth. The Air Force took measured risk 
across our WSS requirements in the FY11 budget, funding only our 
highest priority requirements. For these reasons, WSS is the top 
priority submission on Air Force unfunded requirements list. Reductions 
of OCO funding without a proportionate shift to the baseline budget 
will further increase risk in WSS, possibly to untenable levels. Per 
OSD guidance, a migration of OCO funds to baseline budget will begin in 
fiscal year 2012 for Air Force depot maintenance requirements.
    Mr. Ortiz. What impact has OMB's new rules regarding what can be 
and cannot be included in the OCO request had on your services' 
requests for reset funding?
    General Chandler. [The information referred to was not available at 
the time of printing.]
    Mr. Ortiz. For logistics support that is being brought back in-
house to be performed by service personnel, do your services have the 
necessary technical data packages?
    General Chandler. [The information referred to was not available at 
the time of printing.]
    Mr. Ortiz. What criteria have been established for determining 
which functions should be insourced?
    General Chandler. [The information referred to was not available at 
the time of printing.]
    Mr. Ortiz. What plans do your services have in place to assist 
contractor employees whose functions may be insourced?
    General Chandler. [The information referred to was not available at 
the time of printing.]
    Mr. Ortiz. Please provide details of all corrosion mitigation and 
prevention costs in your services' FY11 budget request.
    General Chandler. [The information referred to was not available at 
the time of printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. General Chandler, the President's Budget Request 
includes a proposal that would reduce the Air National Guard's C-130 
inventory by 21 planes in order to shift them to the active Air Force. 
I understand that 13 of these planes would be shifted due to BRAC and 
the closing down of the Puerto Rico Air Wing. However, I am troubled 
that eight C-130s from eight unnamed states would also be shifted to 
the Air Force, thereby reducing each of those Air National Guard Wing's 
Primary Assigned Aircraft to only 7 C-130s. What reasoning and analysis 
are behind this decision? Is the Air National Guard not more cost 
effective than the active Air Force when performing the same training 
missions? Lastly, did the Air National Guard provide any input when 
this decision was made?
    General Chandler. The Air Force fully appreciates the dedication of 
our Air National Guard and Air Force Reserve Total Force partners, and 
we understand the concerns that you and others have raised regarding 
potential movements within the C-130 fleet. We are currently working 
with Active, Guard, and Reserve leadership to ensure that we have the 
most effective balance to support the Air Force's operational 
requirements, the mission needs of the states, and the required formal 
training, and to ensure we are postured for long-term readiness.
    We expect to complete this review by no later than early May; we 
will inform you as soon as we reach a final decision.

                                  <all>

</pre></body></html>
